 U. S. G O V E R N M E N T P R I N T I N G O F F I C E   ■   OFFICE OF INSPECTOR GENERAL

S E M I A N N U A L                    R E P O R T               T O   C O N G R E S S
                      OCTOBER 1, 2010 THROUGH MARCH 31, 2011
THE U. S. GOVERNMENT PRINTING OFFICE

For well over a centur y, the U.S. Government         Government information through public sales and
Printing Office (GPO) has fulfilled the needs of      other programs, and—most prominently—by post-
the Federal Government for information prod-          ing more than a quarter of a million titles online
ucts and distributing those products to the pub-      through GPO Access (www.gpoaccess.gov).
lic. GPO is the Federal Government’s primary               Today approx imately 97% of all Federal
resource for gathering, cataloging, producing, pro-   Government documents begin as digital products
viding, authenticating, and preserving published      and are published directly to the Internet. Such an
U.S. Government information in all its forms. GPO     evolution of creating and disseminating informa-
also produces and distributes information prod-       tion challenges GPO, but it has met those challenges
ucts and services for each of the three branches      by transforming itself from primarily a print format
of Government.                                        entity to an agency ready, willing, and able to deliver
     Under t he Feder a l Depositor y L ibr a r y     from a digital platform a high volume of information
P rog ra m, GPO d ist r ibutes a w ide ra nge of      to a multitude of customers.
Government publications in print and online to             Although a transition to digital technology
more than 1,250 public, academic, law, and other      changes the way products and services are created
libraries across the country. In addition to dis-     and offered, GPO strives to continually satisfy the
tributing publications through that library sys-      requirements of Government and accomplish its
tem, GPO prov ides access to official Federal         mission of Keeping America Informed.




THE OFFICE OF INSPECTOR GENER AL

The Office of Inspector General (OIG) was created     The OIG also recommends policies that promote
by the GPO Inspector General Act of 1988—title II     economy, efficiency, and effectiveness in GPO pro-
of Public Law 100-504 (October 18, 1988) (GPO IG      grams and operations.
Act). The OIG at GPO is dedicated to acting as an         The OIG informs t he Public Printer and
agent of positive change—changes that will help       Congress about problems and deficiencies as well
GPO improve its efficiency and effectiveness as the   as any positive developments relating to GPO’s
Agency undertakes an era of unprecedented trans-      administration and operation. To accomplish
formation. Through evaluation of GPO’s system of      those responsibilities, the OIG conducts audits,
internal controls, the OIG recommends policies,       assessments, investigations, inspections, and
processes, and procedures that help prevent and       other reviews.
detect fraud, waste, abuse, and mismanagement.
                                  TA B LE                        O F            C O N T E N T S




MESSAGE FROM THE INSPECTOR GENERAL . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
HIGHLIGHTS OF THIS SEMIANNUAL REPORT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
OIG MANAGEMENT INITIATIVES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
PERSONNEL UPDATE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
COUNCIL OF THE INSPECTORS GENERAL ON INTEGRITY AND EFFICIENCY . . . . . . . . . . . . . . 7
REVIEW OF LEGISLATION AND REGULATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


GPO MANAGEMENT CHALLENGES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


OFFICE OF AUDITS AND INSPECTIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
A. Summary of Audit and Inspection Activity . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
B. Financial Statement Audit. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
C. Audit and Inspection Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
D. Ongoing Work . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
E. Status of Open Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26

OFFICE OF INVESTIGATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31
A. Summary of Investigative Activity . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                      31
B. Types of Cases . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   32
C. Summary of Investigative Accomplishment . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                  33
D. Management Implication Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                         35

APPENDICES
A. Glossary and Acronyms . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              37
B. Inspector General Act Reporting Requirements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                     40
C. Statistical Tables . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   41
   Table C-1: Audit Reports with Questioned and Unsupported Costs . . . . . . . . . . . . . . . . . . . . . .                                                       42
   Table C-2: Audit Reports with Recommendations for Funds That Can Be Put to Better Use . .                                                                        43
   Table C-3: List of Audit and Inspection Reports Issued During Reporting Period . . . . . . . . .                                                                 44
   Table C-4: Investigations Case Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                             45
   Table C-5: Investigations Productivity Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                     46
D. Peer Review Results . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        47




                                                                                       SEMIANNUAL REPORT TO CONGRESS                                                     1
     M E S SAG E                 F R O M         T H E       I N S PEC TO R                G E N E R A L




“   NOW IS THE TIME TO EMBR ACE TECHNOLOGY,

    anticipate customer and stakeholder needs, and

    provide real-time access to information in a usable,



                                                           ”
    searchable, and sustainable electronic format.




             “The rules have changed. In a single generation, revolutions in technology
                 have transformed the way we live, work and do business. Steel mills
                that once needed 1,000 workers can now do the same work with 100.”
                                           — President Barack Obama

    In his 2011 State of the Union Address, President          Consider that three years ago, we could not conceive
    Obama made a clarion call to the people of the             of the iPad. Yet these innovations and technologi-
    United States. His message also resonates on the           cal advances have reshaped how we access and use
    realities of GPO operations. As the digital revolution     information. And the momentum for ongoing digital
    advances, the need for printed product is quickly          innovation remains unabated. While the print indus-
    being replaced by demand for documents on the              try often invokes the words of Benjamin Franklin,
    Internet and digital devices such e-readers and            to remain viable, the industry must embrace the
    iPads. But, as the President noted,                        revolutions created by the likes of Steve Jobs, Mark
        “[T]his shouldn’t discourage us. It should             Zuckerberg, and Jeff Bezos—to name only a few.
        challenge us . . . The first step in winning                 This is an important backdrop to other reali-
        the future is encouraging American inno-               ties facing the GPO during these challenging fis-
        vation. . . . Thirty years ago, we couldn’t            cal times. Trudy Givens, a worker for the Federal
        know that something called the Internet                Bureau of Prisons, won the President’s 2010 SAVE
        would lead to an economic revolution.                  AWARD for suggesting that GPO cease printing and
        What we can do–what America does bet-                  mailing thousands of copies of the Federal Register,
        ter than anyone else–is spark the creativity           the federal government’s official daily publication
        and imagination of our people.”                        of executive branch rules, notices, orders and other
                                                               presidential documents. Savings are estimated at
         With that challenge, GPO stands at a cross
                                                               approximately $4 million per year. In addition, after
    roads. The need to innovate has never been more
                                                               have been several bills have been introduced in
    critical. Indeed, thirty years ago, we had no idea
                                                               Congress to limit printing by GPO. Federal agencies,
    that the Internet, Blackberries, social networking,
                                                               in efforts to reduce costs, are also curtailing printing.
    and the like would reshape our day-to-day lives.



                                                               SEMIANNUAL REPORT TO CONGRESS                               3
      Yet, a decline in printing does not translate as   the inventory control and management of laptop
a decline in the need or desire for information. In      computers within the Agency. While Agency man-
fact, the opposite appears true. Congress and the        agement accepted our recommendations, we will
American people want information – they just want        continue to monitor this matter as the Agency has
it faster, quicker, and in a searchable and usable       yet to account for its full inventory of laptop com-
format. While we may enjoy big books on the desk,        puters. OAI also made several recommendations to
there is no search function on the paper version of      help improve the ethics program and culture at GPO.
the budget or congressional bills.                             Our Office of Investigations (OI) continued its
      The demand for change is real and again evi-       focus on contract and procurement fraud, which
denced by the Public Online Information Act recently     resulted in one conviction, seven debarments, and
introduced in both the House and Senate. Congress        the issuance of numerous subpoenas in several ongo-
notes specifically that “[a]s the public moves online,   ing investigations. OI also issued two management
the Government must do so as well. It should do so in    implication reports that have alerted Agency man-
ways that take advantage of modern technology, that      agement to a variety of issues of employee miscon-
anticipate the public’s needs, and that provide access   duct on night shifts and vulnerabilities in surplus
to the greatest number of people.”                       property management –underscoring the need for
      Charged with Keeping America Informed, GPO         greater controls in property management at GPO.
should be on the forefront of these digital transfor-          I am also very proud to report that both the
mation efforts. GPO has taken the first steps with the   OAI and OI underwent and passed peer reviews this
Federal Digital System (FDsys) and its recent agree-     period. These reviews provide third-party assur-
ment to offer GPO publications through the Google        ance that the GPO OIG is in compliance with federal
ebookstore, but it should do more to spark the cre-      standards and has in place internal safeguards and
ativity and imagination of the GPO workforce. Now        management procedures to ensure such compliance.
is the time to innovate, educate, and build an Agency    I commend my senior management team on their
that can meet the demands of today and the future.       continued efforts to review and improve our opera-
Now is the time to embrace technology, anticipate        tions and efficiencies, while also creating a positive
customer and stakeholder needs, and provide real-        and enriching work environment.
time access to information in a usable, searchable,            And on a final personal note, this will be my last
and sustainable electronic format. By so doing, GPO      semi-annual report as Inspector General of the GPO.
can heed the President’s clarion call, and in the pro-   It has been an honor and privilege to serve the dedi-
cess can become more efficient and economical –a         cated members of the OIG, the GPO, its customers
model for innovation.                                    and stakeholders, and the American public in this
      Indeed, technolog y has also transformed           capacity. I am very proud of the women and men of
the way the GPO OIG does business. Our over-             the OIG and the commitment they demonstrate every
sight efforts continue to focus on the innovations       day to their profession. I leave with a sense of accom-
and technology developments at GPO, while also           plishment knowing that the OIG is on course to meet
addressing the potential for fraud during an eco-        its mission and statutory obligations to be an inde-
nomically fragile time. And within the OIG, we con-      pendent and objective force to promote economy,
tinue to utilize technology to help address customer     efficiency, and effectiveness and ferret out fraud,
and stakeholder needs, as well as provide access to      waste, and abuse in the programs and operations
our reports and information.                             of GPO.
      During this reporting period, the Office of
Audits and Inspections (OAI) continued to examine
the vulnerabilities and risks associated with imple-
mentation of the FDsys and we are pleased that sev-
                                                         J. Anthony Ogden
eral recommendations have been closed during this        Inspector General
period. OAI also identified serious issues related to    U.S. Government Printing Office
H I G H LI G H T S                 O F      T H I S     S E M I A N N UA L                    R E P O R T




T
          he Office of Audits and Inspections (OAI)           between 2005 and 2009. The audit further showed
          issued six reports during this reporting            that GPO could not account for the laptops in part
          period. Those six reports included an audit         because management did not establish standard
of the agency’s ethics program as well as an audit            operating procedures to implement written poli-
of the control and accountability of laptop comput-           cies on property control and accountability for lap-
ers. An audit was also completed of the information           tops. The audit report recommended that manage-
technology (IT) security controls over GPO’s Secure           ment develop standard operating procedures for
Card Personalization System (SECAPS). OAI also con-           laptop acquisition, management, and cradle-to-
tinued to oversee the Independent Verification and            grave inventory tracking.
Validation (IV&V) efforts related to implementation       ■   An audit of IT controls over GPO’s Secure Card Per-
of the Federal Digital System (FDsys) and the annual          sonalization System (SECAPS) identified opportu-
audit of GPO’s financial statement.                           nities to strengthen IT security controls and further
     OAI’s significant accomplishments during this            reduce the potential risk of system compromise.
reporting period include the following:
                                                          ■   Continued to oversee the efforts of American Sys-
■   An audit of the agency’s ethics program showed            tems as it conducted IV&V for the public release of
    that GPO does not have an established ethics pro-         FDsys. We issued two quarterly reports during this
    gram consistent with Federal Government best              reporting period that provided observations and
    practices. A majority of Agency employees who             concerns on the program’s technical, schedule, and
    completed a survey on GPO’s ethical climate and           cost risks as well as requirements traceability of those
    the effectiveness of the ethics program did not           risks and the effectiveness of the program manage-
    believe or were unsure whether GPO’s culture              ment processes in controlling risk avoidance.
    and atmosphere promote ethical behavior and
                                                          ■   Completed our oversight responsibilities with
    conduct. The audit report recommended that the
                                                              respect to GPO’s annual financial statement audit
    Agency require employees to undergo regular
                                                              for which the Agency received an unqualified
    ethics training and update Agency ethics policies
                                                              opinion from the Independent Public Account-
    to reflect Federal Government best practices.
                                                              ing (IPA) firm of KPMG, LLP (KPMG).
■   An audit of control and accountability of laptop
                                                              The Office of Investigations (OI) opened 7
    computers showed that GPO could not account for
                                                          investigations and 33 complaints for preliminary
    between 150 and 213 laptops issued to personnel

                                                         SEMIANNUAL REPORT TO CONGRESS                                   5
    investigation, while closing 9 investigations and 46        ■   Updated and issued an information security policy
    complaints. At the end of this reporting period, OI             for the OIG.
    had 31 ongoing investigations and 3 complaints.
                                                                ■   Coordinated and led an informal internal review
    Seven investigations and 14 complaints were
                                                                    of OIG operations against the Quality Standards
    referred to GPO management for information or
                                                                    for Federal OIGs.
    appropriate action.
         More than 70 percent of the ongoing investiga-         ■   Coordinated and led a review of the GPO OIG Web site
    tions involve allegations of procurement fraud. That            and proposed changes designed to enhance commu-
    number reflects continuing OI efforts to identify and           nications with our stakeholders and the public.
    investigate contract and financial fraud within GPO.        ■   Supported the IG in his role as the Chair of the
    This past reporting period, as a result of referrals from       Legislation Committee of the Council of Inspec-
    OI, GPO debarred seven entities from doing business             tors General on Integrity and Efficiency (CIGIE)
    with the Agency. OI also referred to the GPO Office             in reviewing and analyzing proposed legislation
    of General Counsel for consideration of suspension/             affecting the IG community, soliciting comments,
    debarment the findings of two investigations involv-            and drafting letters and informal comments for
    ing allegations against an additional five entities.            members of Congress.
         The Department of Justice (DOJ), including its         ■   Acted on a variety of matters as the OIG liaison to
    Antitrust Division, continues to work with OI on                the GPO General Counsel and the GPO Office of
    ongoing investigations into allegations of false state-         the Chief of Staff, including support with GPO liti-
    ments, false claims, and collusive bidding. In further-         gation and personnel action matters.
    ance of those investigations and others, the IG issued
    28 subpoenas for documents this reporting period.
         OI’s significant accomplishments during this           OIG MANAGEMENT INITIATIVE S
    reporting period include:
                                                                During this reporting period, the OIG underwent
    ■   As a result of OI referrals, five employees were sus-   peer reviews of its audit and investigation functions.
        pended for violating GPO directives.                    We are pleased to report, as noted in Appendix D,
    ■   One subject in an ongoing criminal investigation        that both functions passed their peer reviews, mean-
        pled guilty to one count of making false statements.    ing that both OAI and OI are performing their duties
    ■   OI issued two Management Implication Reports            in compliance with applicable professional stan-
        concerning management of night shift employees          dards. Assistant Inspector General for Audits and
        within Plant Operations and management of GPO           Inspections, Kevin Carson, and Assistant Inspector
        surplus property.                                       General for Investigations, Matthew Elliott, are to be
                                                                commended for their efforts to continuously improve
          The Office of Administration/Legal Counsel
                                                                their operations to reflect the high standards of the
    (OALC) provides legal advice and counsel on issues
                                                                IG community.
    arising during audits, inspections, and investigations,
                                                                     After the peer reviews were conducted, the IG
    including opinions regarding legal accuracy and suf-
                                                                encouraged OIG management to undergo an infor-
    ficiency of OIG reports. OALC manages administra-
                                                                mal, internal review of the OIG against the standards
    tive and management issues as well as congressional
                                                                set out in the Quality Standards for Federal OIGs,
    and media relations and requests for information.
                                                                known as the Silver Book. The quality standards for
    OALC reviews and edits audit, inspection, and inves-
                                                                management, operation, and conduct of Federal
    tigative reports before IG approval.
                                                                OIGs were developed by the President’s Council/
          During this reporting period, OALC accomplished
                                                                Executive Council on Integrity and Efficiency, now
    the following:
                                                                renamed the Council of the Inspectors General on
    ■   Reviewed, edited, and approved 28 IG subpoenas;         Integrity and Efficiency. Although these reviews are
        reviewed and edited 5 audit reports and 7 reports       not mandatory, our informal review identified vari-
        of investigation.                                       ous issues that would result in improved and more

6   O F F I C E    O F   I N S P E C TO R    G E N E R A L
efficient and effective operations. We plan to address
the issues during the upcoming reporting period.
      Finally, during t his reporting period, we
reviewed the GPO OIG’s Web site to determine the
changes necessary to better explain the role of the
IG and its functions, enable better external com-
munications with our stakeholders and the pub-
lic, and encourage more secure communications
with potential complainants. As a result, we made
recommendations to the Agency’s Webmaster and
expect to have a revised Web site during the upcom-
ing reporting period.


PERSONNEL UPDATE
During this reporting period, Douglas Bonaro and
LeRoy (Lee) Barnhill Jr. joined OI as Supervisory
Special Agents. Both recently retired as officers
from the Air Force Office of Special Investigations
and bring more than 30 years of combined law
enforcement experience to the OIG. Before join-
ing OI, Douglas was a Special Agent with the OIG
at the Department of Commerce. Douglas has a
master’s degree in the forensic sciences from The         Douglas Bonaro, LeRoy (Lee) Barnhill, Jr., Erik Duncan
George Washington University and received a Bronze        and Michael Cravens.
Star for his investigative efforts in Operation Iraqi
Freedom. LeRoy has a master’s degree in Business          COUNCIL OF THE INSPECTORS
                                                          GENER AL ON INTEGRIT Y
and Organizational Security Management from
                                                          AND EFFICIENCY
Webster University and before retiring from the Air
Force Office of Special Investigations he commanded       On October 14, 2008, the IG Reform Act of 2008,
the Department of Defense’s Criminal Investigative        Public Law 110–409, established the CIGIE. The
Task Force, Iraq.                                         CIGIE addresses integrity, economy, and effective-
     M ichael Cravens a nd Er i k Du nca n a lso          ness issues that transcend individual Government
joined OI this reporting period as Special Agents.        agencies and helps increase professionalism and the
Michael retired from the Air Force Office of Special      effectiveness of personnel by developing policies,
Investigations as a senior enlisted Special Agent and     standards, and approaches aiding in establishing a
brings more than 20 years of law enforcement experi-      well-trained and highly skilled workforce in OIGs.
ence to OI. Just prior to joining the OIG, Michael was    The GPO OIG—along with other legislative branch
a Special Agent detailed to the U.S. Army Criminal        OIGs—is a member of CIGIE.
Investigation Division and assigned to the Criminal             The role of the CIGIE includes identifying,
Investigation Task Force. Erik served for 4 years as an   reviewing, and discussing areas of weakness and
active duty Special Agent with the U.S. Army Criminal     vulnerability in Federal programs and operations
Investigation Division before joining OI. Michael         for fraud, waste, and abuse, and developing plans
has a master’s degree in Security Management from         for coordinated Government-wide activities that
Bellevue University, and both Michael and Erik are        address those problems and promote economy and
combat veterans who served honorably in Iraq and          efficiency in Federal programs and operations.
other locations overseas.                                       In May 2009, the IG at GPO was elected to serve


                                                          SEMIANNUAL REPORT TO CONGRESS                            7
    a 2-year term as Chairman of the CIGIE Legislation         of legislation or regulations on the economy and effi-
    Committee. The Legislation Committee provides the IG       ciency of programs and operations administered or
    community with helpful and timely information about        financed by GPO.
    congressional initiatives. The Committee also solicits           During this reporting period, four legislative
    the IG community’s views and concerns in response          proposals relating to GPO programs and opera-
    to congressional initiatives and requests, and presents    tions were introduced in Congress, particularly to
    views and recommendations to congressional enti-           defund the Agency or curtail or eliminate the print-
    ties and the Office of Management and Budget (OMB).        ing of bills or the Congressional Record. On January
          On behalf of the CIGIE Legislation Committee,        26, 2011, Senator Rand Paul of Kentucky introduced
    the IG kept CIGIE members informed about legisla-          Senate Bill 162 (S. 162), the Cut Federal Spending Act
    tion affecting the IG community through monthly            of 2011, which would defund GPO. S. 162 is currently
    newsletters and communicated with several con-             on the Senate Calendar. On January 12, 2011, former
    gressional committees on various legislative matters       Representative Christopher Lee of New York intro-
    affecting the IG community, in particular regarding        duced House of Representatives Bill 292 (H.R. 292),
    proposed amendments to the Paperwork Reduction             the Stop the Overprinting (STOP) Act. H.R. 292 would
    Act and the Computer Matching Act. Those proposed          eliminate mandatory printing of congressional bills
    amendments would exempt IGs from burdensome                and resolutions for members of Congress and require
    review and approval processes by third parties and         that they be available “only in an electronic format
    would facilitate easier collection of information from     which is accessible through the Internet.” The House
    non-Federal persons and the identification of fraud        of Representatives passed H.R. 292 by a vote of 399-0,
    in Federal assistance payment and other programs.          and it was referred to the Senate. On January 26, 2011,
          In addition to participating in CIGIE meetings       Senator Thomas Coburn of Oklahoma introduced a
    and events, legislative branch IGs meet regularly to       companion bill, Senate Bill 210, which was referred to
    promote communication, cooperation, and coordi-            the Committee on Rules and Administration.
    nation with one another on an informal basis. During             On March 30, 2011, Senator Coburn introduced
    this reporting period, the IGs of the Architect of the     Senate Bill 674 (S. 674), the Congressional Record
    Capitol and House of Representatives hosted meet-          Printing Savings Act of 2011. S. 674 would limit the
    ings in which the following issues were discussed and      printing of the Congressional Record to those cop-
    are undergoing consideration.                              ies required for “archival purposes” and require that
    ■   Shared training opportunities for legislative          the Congressional Record be available to the public
        branch OIG personnel.                                  on the GPO Web site in a format that enables down-
                                                               loading and printing.
    ■   Cross-cutting legislative branch audits and inspec-
                                                                     These legislative proposals would require GPO
        tions.
                                                               to rely less on traditional printing of congressional
    ■   Model performance criteria and standards.              documents, as statute requires, and more on provid-
    ■   Information technology issues and solutions.           ing cost-effective, electronic dissemination of con-
    ■   Legislative issues affecting the legislative branch    gressional information. The impact of this legisla-
        OIG offices.                                           tion would primarily affect GPO’s Official Journals
                                                               of Government operation, which oversees printing
                                                               and publication of the Congressional Record, Federal
    RE VIEW OF LEGISL ATION AND                                Register, and bills and resolutions. In fiscal year (FY)
    REGUL ATIONS                                               2010, GPO received approximately $94 million in
    The OIG, in fulfilling its obligations under the IG Act,   appropriations for congressional printing and bind-
    reviews existing and proposed legislation and regu-        ing, of which approximately $25 million was for
    lations relating to programs and operations at GPO.        Congressional Record products and $6 million for
    It then reports in each semiannual report the impact       bills, resolutions, and amendments.



8   O F F I C E   O F   I N S P E C TO R    G E N E R A L
               G P O         M A N AG E M E N T              C H A LLE N G E S




T
         he Government Performance and Results
                                                            GPO’S TOP 10 MANAGEMENT CHALLENGES
         Act (GPR A) Modernization Act of 2010
         defines major management challenge as
“programs or management functions, within . . .              1. Customer Service.
agencies, that have greater vulnerability to waste,          2. Human Capital Operations and Management.
fraud, abuse, and mismanagement where a failure              3. Federal Digital System.
to perform well could seriously affect the ability of
                                                             4. Information Technology Security Management.
an agency or the Government to achieve its mission
                                                             5. Acquisitions and Print Procurement.
or goals.” With this new definition, we update the list
                                                             6. Continuity of Operations.
of management challenges we believe are critical for
                                                             7. Internal Controls.
the Agency to address.
                                                             8. Protection of Sensitive Information.
                                                             9. Financial Management and Performance.
1. CUS TOMER SERVICE
                                                            10. Sustainable Environmental Stewardship.
To achieve its objectives as a 21st Century infor-
mation processing and dissemination operation,
GPO management must maintain the appropriate              because they must. Transformation of the tradi-
focus, staffing, and alignment with the Agency’s          tional GPO customer relationship requires a con-
Strategic Vision. During this reporting period,           tinuing evolution toward what the Agency has
the Agency updated the goals of its Strategic Plan.       called “world-class customer service.”
Its first goal is “It’s All About the Customer”—to             During this reporting period, Congress intro-
“understand, anticipate and meet the needs” of            duced various bills to reduce or eliminate printing
its customers. The Agency’s second goal is to pro-        of the Congressional Record and bills or resolutions as
mote a more open and transparent Government by            cost-saving measures. The winner of the President’s
working with its customers to disseminate infor-          2010 SAVE Award [Securing Americans’ Value and
mation through the use of all available technology.       Efficiency Award] suggested that GPO cease print-
The culture and focus of customer service efforts         ing and mailing thousands of copies of the Federal
must reflect a new way of thinking, and customers         Register because most customers use the online ver-
should come to GPO because they want to—not               sion. During this challenging fiscal time, more than


                                                          SEMIANNUAL REPORT TO CONGRESS                             9
                                                                 taking back funds electronically through IPAC from
                                                                 GPO’s Revolving Fund. In FY 2004, the level of charge-
                                                                 backs exceeded $24 million. Our review found that
                                                                 incorrect customer billing code information, lack of
                                                                 purchase order documentation available to the agen-
                                                                 cies, and lax IPAC controls over chargebacks by cus-
                                                                 tomer agencies contributed to the problem. We specifi-
                                                                 cally found that the “amount of staff time and resources
                                                                 expended—by both GPO and customer agencies—in
                                                                 performing duplicative activities, processes, or func-
                                                                 tions by having to re-charge agencies for appropriate
                                                                 costs is both inefficient and a waste of federal funds.”
                                                                 Management accepted our recommendations to
                                                                 resolve these issues.
                                                                       Unfortunately, the chargeback problem has not
                                                                 abated. In fact, as of March 2011, the IPAC chargeback
                                                                 balance exceeds $28 million. In April 2008, the IPAC
                                                                 chargeback balance was approximately $29 million.
                                                                 GPO management conducted a chargeback analysis
     ever GPO customers will be looking for cost-effective       during this reporting period. Based on at least seven
     products. This presents an opportunity for GPO to           previous studies or reviews on this issue (includ-
     continuously evolve and provide customers with cost-        ing our 2004 report), GPO management found that
     effective services and technologically advanced meth-       chargebacks are a “symptom of numerous process
     ods of information dissemination.                           breakdowns,” including incorrect order and billing
          One continuing challenge for GPO in providing          information, inadequate and ineffective communi-
     “world-class customer service” is customer agency           cation both inside the Agency on how to resolve this
     billing and payments. Since 2001, GPO has relied            issue and outside with customers on how to provide
     in large part on the Department of Treasury’s Intra-        correct order and billing information.1
     governmental Payment and Collection (IPAC), an                    One troubling finding is that GPO frequently
     electronic Internet-based collection and payment            double-bills customer agencies and “no root cause
     system for Federal agencies, to bill customer agencies      has been discovered.” Such practices, the manage-
     for printing services. In the normal order and billing      ment analysis found, “impacts GPO’s ability to pro-
     process, GPO first receives a request from a customer       vide effective customer service . . . and damages rela-
     agency for printing and/or binding on a Standard            tionships with customer agencies.”
     Form (SF)-1, “Request for Printing and Binding.” GPO              The management analysis provides a general
     awards a contract to a vendor/contractor to provide         framework on how to move forward to tackle the
     the printing. The print job is then delivered to the cus-   chargebacks issue both in the short-term and long-
     tomer agency, and, after paying the contractor, GPO         term. The OIG intends to ask KPMG, the independent
     prepares the IPAC transaction documents to charge           financial statement auditor, to once again review
     the agency. At the end of each month, GPO person-           this issue as part of this fiscal year’s financial state-
     nel access IPAC and retrieve the total costs due. IPAC      ment audit.
     transactions immediately affect GPO’s revolving fund
     and the customer agency’s respective accounts in the
     U.S. Treasury.                                              1
                                                                    An April 2007 GPO survey of agency customers found
          In 2004, the OIG reviewed the emerging issue of        that almost 46 percent were “dissatisfied” with GPO’s
     “chargebacks” by customer agencies, that is, agencies       billing process.



10   O F F I C E   O F   I N S P E C TO R    G E N E R A L
2. HUMAN CAPITAL OPER ATIONS                                    Among the significant findings of the OPM audit
AND MANAGEMENT                                            were that GPO (1) did not have a fully functioning
                                                          accountability system that ensures efficient and com-
The issues facing Human Capital (HC) operations and
                                                          pliant DE operations; (2) had significant problems in
management at GPO have been identified as a sig-
                                                          transaction processing, particularly regarding the
nificant management challenge for several semian-
                                                          critical “on-boarding process” that establishes new
nual reporting periods. HC operations are at the heart
                                                          hires; (3) lacks consistent updated guidance con-
of effectively accomplishing an agency’s mission. In
                                                          cerning DE processes; (4) used HC Specialists in DE
essence, HC provides services necessary to recruit,
                                                          work before completing certification training, which
hire, develop, and retain the most precious and impor-
                                                          is prohibited by the Interagency DE Agreement with
tant source of productivity—its employees.
                                                          OPM; and (5) did not use annual trend data regard-
      The Government Accountability Office (GAO)
                                                          ing opportunities to hire veterans, or the results of
identified four critical areas related to Strategic
                                                          annual self-audits to improve program operations.
HC Management that the OIG believes are rele-
                                                                HC management acknowledged problems with
vant to GPO:
                                                          timeliness and accuracy in its operations, particu-
■   Leadership. Top leadership must provide com-
                                                          larly the time it takes from position announcement
    mitted and inspired attention needed to address
                                                          to on-boarding and transaction processing. HC man-
    human capital transformation issues.
                                                          agement is addressing those issues, in part, through
■   Strategic Human Capital Planning. HC planning         implementation of EmpowHR, an electronic system
    efforts must be fully integrated with mission and     of HC processing, and by establishing employee per-
    critical program goals.                               formance goals that emphasize accuracy, timeli-
■   Acquiring, Developing, and Recruiting Talent.         ness, and customer service. We believe that for HC
    Agencies need to augment strategies to recruit,       to successfully transform to a high-performing busi-
    hire, develop, and retain talent.                     ness unit, it must produce a change in its culture to
■  Results-oriented Organizational Cultures. Orga-        achieve results-oriented, customer-focused, and col-
   nizational cultures must promote high perfor-          laborative HC solutions.
   mance and accountability, empower and include                We also believe that the Agency faces challenges
   employees in setting and accomplishing program-        in effectively managing its workforce during a time
   matic goals, and develop and maintain inclusive        when fiscal austerity and lean operations will be of
   and diverse workforces reflective of all segments      paramount importance to the Agency. Our ongo-
   of society.2                                           ing audit of payroll operations uncovered a signifi-
      We are encouraged that during this reporting        cant level of overtime pay and employees on Leave
period, HC continued implementing a reorganiza-           Without Pay (LWOP) and Absent Without Leave
tion plan and added new staff to address the four         (AWOL). In FY 2009, GPO expended $9.5 million in
areas that GAO cites to transform HC operations and       overtime pay and almost $11 million during FY 2010.
management. During the previous reporting period,         Those totals amount to almost 4 percent of total pay-
the Office of Personnel Management (OPM) issued           roll in FY 2009 and 4.6 percent in FY 2010. In addition,
audit findings about GPO’s delegated competitive          the number of employees on LWOP for significant
examining (DE) operations. OPM found that while           periods of time has remained above 400 during both
most of the DE operations are being conducted com-        FY 2009 and FY 2010, a remarkable 20 percent of the
pliantly, a “lack of a viable accountability system”      workforce at GPO. In FY 2010, 413 employees were
contributed to two illegal appointments and resulted      on LWOP for a total of 56,715 hours, or 7,089 days.
“in inconsistent operations as well as inefficiencies.”   Finally, a high number of employees were also listed
                                                          as AWOL during the past two fiscal years: 114 in FY
2
                                                          2009 for a total of 5,983 hours and 83 in FY 2010 for a
   GAO Report GAO-09-632T, http://www.gao.gov/new.
items/d09632t.pdf.                                        total of 4,804 hours.



                                                          SEMIANNUAL REPORT TO CONGRESS                              11
          As part of our payroll audit, the results of which     as the increasing demands of electronic Government
     we expect to issue during upcoming reporting periods,       information require.3
     we will be looking at the reasons for elevated levels of         FDsys has three major subsystems: the content
     overtime, LWOP, and AWOL and making recommen-               management subsystem, the content preservation
     dations on how to effectively manage and decrease           subsystem (accessible to GPO internal users only),
     these labor costs and the resulting loss of productivity.   and the access subsystem for public content access
                                                                 and dissemination. A multi-year, multi-release
                                                                 integration effort is being used to design, procure,
     3. FEDER AL DIGITAL SYSTEM
                                                                 develop, integrate, and deploy selected technologies
     The Federal Digital System (FDsys) was originally           and components of FDsys.
     designed to be a comprehensive information life-cycle            T he OIG is responsible for Independent
     management system that will ingest, preserve, provide       Verification & Validation (IV&V) work associated
     access to, and deliver content from the three branches      with developing and implementing FDsys. Under
     of the Federal Government. The system is envisioned         the supervision and direction of the OIG, American
     as a comprehensive, systematic, and dynamic means           Systems conducts independent programmatic and
     of preserving electronic content free from dependence       technical evaluations of the FDsys program to ver-
     on specific hardware and/or software. Because FDsys         ify whether system implementation is consistent
     replaces GPO Access as the Agency’s official informa-
     tion management system for electronic Government
                                                                 3
                                                                   In June 1994, GPO launched GPO Access, which
     documents, the Agency must ensure that the system is
                                                                 provides online access to information from all three
     robust, effective, and provides as much functionality       branches of the Federal Government.




12   O F F I C E   O F   I N S P E C TO R    G E N E R A L
with the FDsys project and cost plan and meets GPO        Nevertheless, many of the services and functionality
requirements. Additionally, IV&V monitors develop-        envisioned in Release 1, such as Library community
ment and program management practices and pro-            requirements, have not been realized.
cesses to anticipate potential issues and validates its        The initial requirements to be contained within
findings through quarterly reports.                       Release 1 (for June 2007) totaled 1,835. When FDsys
                                                          was declared GPO’s official system of record in
Background
                                                          December 2010, the systems contained approximately
The FDsys program has undergone substan-                  1,171 requirements, which was substantially less func-
tial changes since its inception. During the fall of      tionality than originally anticipated. In addition, at the
2007, the schedule and scope for the first release        end of this reporting period, there were 715 Program
was changed significantly and a final release with        Tracking Reports (PTRs) documenting issues with
a reduced scope was planned for late 2008. In early       the system. A majority of these were attributable to
2008, GPO implemented a reorganization of the pro-        Release 1. Addressing that many problems will require
gram with respect to Government and contractor            diverting resources that could otherwise be used on
participation and responsibilities, and implemented       further development of requirements.
a new design for FDsys. The GPO FDsys Program
                                                          Quality: Inconsistent and Incomplete Testing. A
Management Office (PMO) assumed the role of the
                                                          continuing concern for the FDsys program is the
Master Integrator previously held by a contractor.
                                                          quality of the deployed system. Reliable testing is
The PMO also assumed the responsibility for design-
                                                          important to determine if FDsys can function appro-
ing and managing system development. The original
                                                          priately and effectively as it receives more traffic
Master Integrator contractor and other contractors
                                                          from users. Though the testing effort has improved,
were assigned system development roles under the
                                                          it is maligned due to incomplete requirements and
overall guidance of the PMO.
                                                          resource issues.
      In January 2009, GPO deployed a public beta
                                                                The initial System and Integration Testing did
version of the FDsys access subsystem, containing
                                                          not adequately test the Release 1 system require-
8 of the 55 data collections in the GPO Access sys-
                                                          ments, and did not encompass all the functionality
tem. The content management and content pres-
                                                          and capabilities incorporated into the deployed sys-
ervation subsystems was released in late March
                                                          tem. For example, Section 5084 compliance testing
2009. Since deployment, the PMO has continued to
                                                          was only partially successful and the more difficult
update/upgrade the beta system and correct defi-
                                                          Section 508 compliance testing requirements are still
ciencies identified during testing. In September
                                                          outstanding. Furthermore, testing verification was
2010, the PMO announced that Release 1 was com-
plete. However, while all coding and development
was complete, several tasks remained outstanding,         4
                                                             Section 508 of the Rehabilitation Act of 1973, as
including completion of a Continuity of Operations        amended (title 29, section 794d of the United Stated Code)
                                                          requires that when Federal agencies develop, procure,
(COOP) Instance and completion of a number of
                                                          maintain, or use electronic and information technology,
testing activities, including performance testing. In     Federal employees with disabilities have access to and use
December 2010, the Public Printer announced that          of information and data that is comparable to the access
                                                          and use by Federal employees who are not individuals
FDsys was the “official system of record” for GPO,
                                                          with disabilities, unless an undue burden would be
3 and one-half years later than originally planned.       imposed on the agency. Section 508 also requires that
                                                          individuals with disabilities, who are members of the
Current OIG Concerns                                      public seeking information or services from a Federal
Reduced Functionality. The declaration of FDsys as        agency, have access to and use of information and data
                                                          that is comparable to that provided to the public who are
GPO’s “official system of record” signified that all of   not individuals with disabilities, unless an undue burden
the official versions of GPO content, along with the      would be imposed on the agency. Although Section
source data, resided in and was available in FDsys.       508 does not apply to GPO, the Agency has voluntarily
                                                          adopted its requirements.



                                                          SEMIANNUAL REPORT TO CONGRESS                                13
     not completed, thus making it impossible to deter-
     mine the percentage of tests that passed or failed or
     whether all of the allocated requirements were suc-
     cessfully tested.
     Increased Costs. The total FDsys contract costs
     incurred as of the end of February 2011 was approxi-
     mately $45 million. Most of those costs were attrib-
     utable to Release 1. The original contract to design
     and develop Release 1 was approximately $16 mil-
     lion. Substantial investments will continue to be
     required to complete the FDsys that was originally
     envisioned. Additionally, one of the goals of FDsys
     was to replace GPO Access. As this has taken longer
     than anticipated, it has necessitated the need for GPO
     Access to remain operational. Therefore, GPO is run-
     ning GPO Access in parallel at a significant cost to the
     Agency. The Agency now estimates that GPO Access
                                                                FDsys has been an extremely difficult undertaking
     will become an archive-only system in Spring 2011,
                                                                and required more time and resources than the PMO
     and fully retired in late 2011.
                                                                originally anticipated.
     Inadequate Program Management. The FDsys pro-                    We continue to believe that the primary chal-
     gram lacks program management experience and               lenges for the FDsys program are in the areas of pro-
     does not consistently use proven and accepted stan-        gram management, system engineering leadership,
     dard program management practices. The PMO has             technical direction, and an adequate test program
     not embraced techniques that would give the pro-           for the FDsys system. The goal of our on-going IV&V
     gram more insight into progress, enabling better           work is to report key risks and issues to the PMO and
     management and better opportunity for successful           management and provide value-added recommen-
     deployment within scope, cost, schedule, and qual-         dations that will help mitigate risks.
     ity goals. For example, while the PMO committed in
     response to an OIG recommendation to use Earned
     Value (EV) analysis to measure progress against cost       4. INFORMATION TECHNOLOGY
                                                                SECURIT Y MANAGEMENT
     and schedule, they have not done so. If used effec-
     tively, EV can provide an early warning of project         Because GPO prov ides ser v ices to execut ive
     performance problems while time is available for           branch agencies that must comply with the Federal
     corrective action.                                         Information Security Management Act (FISMA) of
          While continuing to have concerns regarding           2002, GPO chose to substantially comply with the
     implementation of FDsys, we don’t want to imply            principles of the Act. The purpose of FISMA is to
     that the FDsys program lacks effort or has failed to       improve information security at Government agen-
     produce a viable product. The FDsys Release 1 has          cies and Government contractors. Complying with
     received praise and notoriety for its look, feel, and      FISMA continues to present additional challenges for
     ease of use. The PMO has also dealt with external          GPO, including protecting sensitive Agency systems,
     commitments/requests (for example, availability of         information, and data.
     bulk data) that have altered internal priorities and            During FY 2007, the OIG conducted a baseline
     resulted in the delay of work on the development           assessment of compliance with FISMA to identify
     of all the capabilities envisioned for the release. In     any gaps and deficiencies in GPO’s overall informa-
     addition, the migration of data from GPO Access to         tion security program, including critical systems. We




14   O F F I C E   O F   I N S P E C TO R   G E N E R A L
completed a full FISMA assessment in FY 2009. The       real-time nature of threats to information systems.
scope included evaluating GPO progress in comply-            We plan to initiate our next assessment of GPO’s
ing with FISMA based on the 2007 assessment. Our        compliance with FISMA in late 2011. Our assessment
most recent assessment noted that while GPO has         approach will integrate the new NIST risk manage-
made some progress in complying with FISMA, addi-       ment framework and include an evaluation of GPO’s
tional improvements are needed. During this report-     ability to maintain ongoing awareness of information
ing period, the Information Technology and Systems      security, vulnerabilities, and threats to support orga-
(IT&S) office continued to make progress in address-    nizational risk management decisions.
ing recommendations made in our 2009 assessment.
      The Federal Government is shifting its IT secu-
                                                        5. ACQUISITIONS AND PRINT
rity strategy from periodic security reviews to con-    PROCUREMENT
tinuously monitoring and remediating IT secu-
rity vulnerabilities. In February 2010, the National    Acquiring goods and services and procuring print-
Institute of Standards and Technology (NIST) pub-       ing on behalf of the executive branch remain crit-
lished Special Publication 800-37 Revision 1; Guide     ical challenges as GPO strives to transform the
for Applying the Risk Management Framework to           Agency and meet the changing needs of its cus-
Federal Information Systems: a Security Life Cycle      tomers. During FY 2010, GPO procured goods and
Approach. The publication transformed the tradi-        services valued at more than $600 million, approx-
tional Certification and Accreditation (C&A) pro-       imately two-thirds of the Agency’s consolidated
cess, which required detailed audits and invento-       expenses. Given this financial vulnerability, we
ries of Federal agency information systems. While       are concerned that GPO has not fully assessed its
providing a baseline of security controls for infor-    acquisition programs to identify critical perfor-
mation assets, the C&A process did not address the      mance and oversight issues.




                                                        SEMIANNUAL REPORT TO CONGRESS                             15
           In 2008, OMB issued guidance to executive           dated November 21, 2008, states that the agency
     branch agencies on conducting internal reviews            established a COOP plan to provide for continua-
     of the acquisition function required under OMB            tion of the Agency’s essential functions and opera-
     Circular No. A-123. Although not required to follow       tions. The plan requires that activities be operational
     those guidelines, GPO manages and oversees pro-           within 12 hours and that operations be sustained
     curement and production of printing on behalf of its      for up to 30 days. The Agency’s essential functions
     executive branch customers. We, therefore, believe        are supporting the printing and electronic publish-
     GPO (and its customers) would benefit greatly from        ing requirements of Congress and production of the
     an internal review of Customer Services (formerly         online Federal Register for the Office of the Federal
     Print Procurement) and Acquisition Services. In his       Register, and blank passports for the Department
     June 7, 2010, letter to Congress, the former Public       of State.
     Printer stated that GPO would finish an independent             The Agency has made considerable progress in
     assessment of Acquisition Services by the end of FY       relation to COOP actions and identified assorted risks
     2010. The OIG recently became aware that GPO has          and problems that it continues to work to resolve.
     not conducted any such assessment. Agency man-            As of February 2011, there were a total of 25 identi-
     agement stated, however, that it plans to conduct an      fied risks and problems. Of the 25, the top 7 strategic
     assessment in the near future.                            risks for GPO include (1) not being able to support
           GPO also faces ongoing challenges with Agency       Congress at an ad hoc location, (2) not “Day 1” ready
     contract management, as evidenced in part by our          for a COOP incident, (3) not prepared for telework,
     ongoing audit of FDSys contract administration and        (4) incomplete COOP plans and documentation, (5)
     our continuing procurement fraud investigations. The      insufficient COOP training at all levels, (6) COOP not
     rise in procurement fraud-related investigations and      an essential part of the GPO Strategic Plan, and (7)
     referrals by OI for suspension and debarment con-         COOP responsibilities not included in performance
     sideration further illustrate the need for greater con-   plans of key staff personnel. The Agency must con-
     tract oversight and contract officer training. During     tinue to address those risks and problems as it moves
     this reporting period, OI referred to management four     forward with establishing and ensuring that essential
     complaints related to failures by contractors to follow   functions can continue during any COOP scenario.
     the terms of GPO contracts. Through more efficient
     contract management and greater use of adminis-
                                                               7. INTERNAL CONTROL S
     trative contract remedies, GPO might have avoided
     the violations substantiated in those complaints. OI      GPO management establishes and maintains a sys-
     did not receive any formal response to those referrals.   tem of internal controls for effective and efficient
           Improv ing acquisitions by strengthening            operations, reliable financial reporting, and com-
     accountability, eliminating waste, improving per-         pliance with laws and regulations. As the GAO notes
     formance, and targeting fraud and mismanagement           in its Standards of Internal Control in the Federal
     are all necessary to protect the best interests of the    Government, internal control “also serves as the first
     taxpayers. In a time of budget cuts and constraints,      line of defense in safeguarding assets and prevent-
     GPO must do its part to effectively manage and pro-       ing and detecting errors and fraud.” Almost all OIG
     tect procurement funds.                                   audits include assessments of a program, activity, or
                                                               function’s control structure. Agency action to make
                                                               internal controls the responsibility of all employees,
     6. CONTINUIT Y OF OPER ATIONS
                                                               but especially managers, must continue as a priority.
     GPO’s ability to continue its mission essential func-           Our audits continue to identify issues related
     tions during a disruption in operations continues         to internal controls. For example, the OIG issued an
     to be a significant area of concern. GPO Directive        audit report during this reporting period that identi-
     825.40, “Continuity of Operations Plan (COOP),”           fied internal control weaknesses related to controlling



16   O F F I C E   O F   I N S P E C TO R   G E N E R A L
and accounting for Agency-issued laptop computers.          cies were controls over special journal entries, control
The audit identified that the Agency could not account      over human resource data, and IT general and appli-
for between 150 and 213 laptops with a total purchase       cation controls. Those deficiencies will be followed up
price value of between $331,500 and $470,730. Further,      on during the FY 2011 financial statement audit, which
Agency management could not provide an explana-             will begin during the next reporting period.
tion as to the location of the missing laptops, in part
because management did not establish standard oper-
                                                            8. PROTECTION OF SENSITIVE
ating procedures to implement written policies on           INFORMATION
property control and accountability for laptops.
     Internal controls within GPO for preventing loss       After several recommendations from this office, GPO
of laptops need improvement, as evidenced by the            has begun to establish rules of conduct and appro-
inability of the Agency to produce reports of either        priate administrative, technical, and physical safe-
acquisition or disposition of laptops or account for        guards that adequately identify and protect sen-
laptops from purchase to final disposition. Such a          sitive information. Failure to have such rules and
lack of controls over laptops may have resulted in          safeguards could result in harm, embarrassment,
the inadvertent exposure of sensitive GPO business          inconvenience, or unfairness to individuals and GPO,
information about acquisitions and human capital,           including possible litigation. Of particular impor-
as well as the manufacture and issuance of security         tance is the need to safeguard against and respond
documents such as U.S. passports.                           to any breach of personally identifiable information
     The annual financial statement audit also              (PII), including personal information in both infor-
addresses internal control issues and provides man-         mation systems and paper documents.
agement with recommendations for corrective                      FISMA requires that each agency establish rules
actions. Although issuing an unqualified opinion on         of conduct for persons involved with PII, establish
GPO’s FY 2010 financial statements, KPMG identified         safeguards for PII, and maintain accurate, relevant,
three significant internal control deficiencies, which it   timely, and complete PII information. As reported in
did not consider material weaknesses. Those deficien-       OIG Report 07-09, “GPO Compliance with the Federal




                                                            SEMIANNUAL REPORT TO CONGRESS                              17
     Information Security Management Act (FISMA),” dated        oriented management and efficient allocation of scarce
     September 27, 2007, and again in our FISMA Report          resources. OIG auditors and contractors they oversee
     10-03, dated January 12, 2010, GPO is progressing with     are vital in keeping the Federal Government’s financial
     efforts to protect PII contained in information sys-       information and reporting transparent, valid, and use-
     tems. GPO Directive 825.41, “Protection of Personally      ful to agency decision-makers and other stakeholders.
     Identifiable Information,” issued March 30, 2010, estab-         Federal law requires that GPO obtain an inde-
     lishes a framework for protecting PII at GPO.              pendent annual audit of its financial statements,
          In response to recommendations included in            which the OIG oversees. KPMG conducted the FY
     a February 2009 Management Implication Report              2010 audit under a multiyear contract for which
     regarding the handling of PII, the Public Printer          OAI serves as the Contracting Officer’s Technical
     appointed a senior-level manager as Privacy Officer        Representative (COTR). KPMG issued an unquali-
     (PO). GPO also hired a new privacy program manager         fied opinion on GPO’s FY 2010 financial statements,
     to help the PO implement GPO Directive 825.41. Our         stating that the Agency’s financial statements were
     next FISMA assessment, which is scheduled to begin         fairly presented, in all material respects, and in con-
     in late 2011, will evaluate GPO’s implementation of        formity with generally accepted accounting princi-
     GPO Directive 825.41 to protect sensitive information.     ples. KPMG identified three significant deficiencies,
                                                                which it did not consider material weaknesses. Those
                                                                deficiencies were: (1) controls over special journal
     9. FINANCIAL MANAGEMENT AND
     PERFORMANCE                                                entries, (2) control over human resource data, and
                                                                (3) IT general and application controls.
     Federal agencies continue to face challenges provid-             Although not affecting the audit opinion, some
     ing timely, accurate, and useful financial information     issues continue to hamper the Agency with respect
     and managing results. Better budget and performance        to financial management and performance. For
     integration has become even more critical for results-     example, as mentioned in the “Customer Service”




18   O F F I C E   O F   I N S P E C TO R    G E N E R A L
management challenge, customer agency billing
and payments continues to be an issue, which poten-
tially affects the Agency’s financial performance.
Specifically, as of March 2011, the IPAC chargeback
balance is more than $28 million.
      The Agency stated in its 2010 Financial Statements
that GPO billed customers about $958 million for
printing and binding services, including congressio-
nal services funded by appropriations, during FY 2010.
The U.S. Department of the Treasury’s IPAC System
was used to collect about $741.5 million, or 77.4 percent
of this debt from customers. Additionally, about $77.4
million, or 8.1 percent of this debt, was collected from
funds held in customer Printing and Binding Deposit
Accounts maintained by GPO and another $17.2 mil-
lion, or 1.8 percent, was collected through credit card
transactions. Such electronic-based methods allow
prompt collection of funds, rather than the more tra-
ditional methods of collection.
      In January 2009, however, KPMG wrote in its
management letter of the financial audit that inter-
nal controls over the IPAC billing process needed to
be strengthened. KPMG observed that the major rea-          Although GPO is not covered by law, we urge man-
son for the chargebacks was that GPO “is not gath-          agement to undertake this type of review so that it can
ering and/or validating key customer billing infor-         develop actions that will reduce or recover improper
mation” in the ordering process, which causes the           payments. We expect to review efforts by the Agency
agency being billed to reject the IPAC invoice. KPMG        in this area in the future.
noted that the chargeback problem could “overstate
accounts receivable in the consolidated financial           10. SUS TAINABLE ENVIRONMENTAL
statement” and also takes an inordinate amount of           STEWARDSHIP
time and resources to investigate and resolve.
                                                            As the largest industrial manufacturer in the District
      IPAC chargebacks, included in accounts receiv-
                                                            of Columbia, GPO has always faced challenges to
able, totaled approximately $26.4 million at the end
                                                            become more environmentally sensitive. The Public
of FY 2010 and were approximately $28 million as of
                                                            Printer has made environmental stewardship and a
the end of this reporting period. The OIG intends to
                                                            sustainable future Agency goals and committed to
request that KPMG revisit this issue as part of its FY
                                                            integrate environmental values into GPO processes.
2011 financial statement audit.
                                                                 We continue to urge adoption of principles con-
      Finally, we note that the Improper Payments
                                                            sistent with sustainable environmental stewardship
Elimination Improvement Act was signed into law
                                                            objectives. First, we encourage management and
on July 22, 2010. The 2010 Act amends the Improper
                                                            Congress to renew efforts to evaluate a new facility
Payments Information Act of 2002 by requiring that
                                                            that would more appropriately meet Agency needs
executive branch agencies periodically identify and
                                                            and be more energy efficient. A more energy efficient
review programs and activities susceptible to sig-
                                                            and environmentally conscious facility not only fits
nificant improper payments and report on actions
                                                            with the Agency’s environmental stewardship initia-
that would reduce or recover improper payments
                                                            tive but also meets the environmental and economic
in accordance with guidance OMB plans to issue.



                                                            SEMIANNUAL REPORT TO CONGRESS                             19
     objectives for Congress and the Administration.           achieving a long-term and sustainable environmen-
           We also continue to encourage management            tal stewardship program.
     to promote and incorporate “green thinking” into
     all of its business processes through performance
     metrics, reward programs, and other means. For
     example, the OIG has recommended an integrated
     approach to green acquisition such as that espoused
     in Executive Order 13514, which sets sustainability
     goals for Federal agencies and focuses on making
     improvements in their environmental, energy, and
     economic performance. Although not required to
     adhere to the Executive Order, we believe that it is
     beneficial for management to adopt its tenets and
     develop written policies for purchasing environmen-
     tally sustainable goods and services, monitor com-
     pliance annually and fix shortcomings, and provide
     training on making purchases that are environmen-
     tally sound and comply with the spirit of the order.
           In our previous report, we noted that GPO’s for-
     mer environmental executive recommended issues
     to explore with GPO’s legislative branch counter-
     parts, including:
     ■   Consolidating waste-hauling contracts to obtain
         a more favorable rate for recycled goods as well as
         ensure that each agency can participate in recy-
         cling efforts.
     ■   Consolidating standard goods purchasing, such as
         cafeteria supplies, cleaning chemicals, and paper
         (in all its forms), to reduce cost and ensure each
         agency is using the “greenest” products available.
     ■ Sharing service contracts to achieve economies of
       scale and uniformity throughout legislative branch
       agencies.
          To meet those challenges, GPO should have a
     dedicated environmental executive who will address
     the issues across Agency business units and directly
     with officials in other legislative branch agencies.
          We have included in our work plan a review of
     energy use at GPO to determine whether a compre-
     hensive plan exists for implementing energy-related
     projects, as part of an overall plan that helps reduce
     emissions, energy consumption, and energy costs.
     We hope to begin the audit in the near future and
     look forward to working with Agency personnel in




20   O F F I C E   O F   I N S P E C TO R   G E N E R A L
       O F FI C E           O F      AU D IT S          A N D     I N S PEC TI O N S




O
           AI conducts independent and objective         B. FINANCIAL STATEMENT AUDIT
           performance and financial audits relat-
           ing to GPO operations and programs, and       (Audit Report 11-04, Issued
oversees the annual financial statement audit con-       December 21, 2010)
ducted by an IPA. OAI also conducts short-term
                                                         Federal law requires that GPO obtain an inde-
inspections and assessments of GPO activities,
                                                         pendent annual audit of its financial statements,
which generally focus on issues limited in scope
                                                         which the OIG oversees. KPMG conducted the FY
and time. Audits are performed in accordance with
                                                         2010 audit under a multiyear contract for which
Government Audit Standards that the Comptroller
                                                         OAI serves as the COTR. The oversight provided
General of the United States issues. When requested,
                                                         ensures that the audit complies with Government
OAI provides accounting and auditing assistance for
                                                         Audit Standards. OAI also assists with facilitating
both civil and criminal investigations. OAI refers to
                                                         the external auditor’s work as well as reviewing the
OI for investigative consideration any irregulari-
                                                         work performed. In addition, OAI provides admin-
ties or suspicious conduct detected during audits,
                                                         istrative support to KPMG auditors and coordinates
inspections, or assessments.
                                                         the audit with GPO management.
                                                              OIG oversight of KPMG, as differentiated from
A . SUMMARY OF AUDIT AND                                 an audit in accordance with Government Audit
INSPECTION ACTIVIT Y                                     Standards, is not intended to enable us to express,
During this reporting period, OAI issued six new         and therefore we do not express, an opinion on
reports and successfully passed a peer review con-       GPO’s financial statements, the effectiveness of
ducted by the Library of Congress (LOC) OIG. OAI         internal controls, or compliance with laws and reg-
also continued its work with management to close         ulations. However, our oversight, as limited to the
open recommendations carried over from previous          procedures outlined earlier, disclosed no instances
reporting periods. GPO management made signifi-          in which KPMG did not comply, in all material
cant progress during this period in closing open         respects, with Government Audit Standards.
audit and assessment recommendations. As a result,            KPMG issued an unqualified opinion on
as of March 31, 2011, a total of 28 recommendations      GPO’s FY 2010 financial statements, stating that the
from previous reporting periods remain open.             Agency’s financial statements were fairly presented,



                                                         SEMIANNUAL REPORT TO CONGRESS                          21
     in all material respects, and in conformity with gen-     agency employees and prevent or detect employee
     erally accepted accounting principles. KPMG iden-         misconduct and violations of ethics regulations. An
     tified three significant deficiencies, which it did not   effective ethics program inspires employees not only
     consider to be material weaknesses. Those deficien-       to comply with ethics regulations, but also fulfill the
     cies were controls over special journal entries, con-     highest ideals of public service and provide the public
     trol over human resource data, and IT general and         with full faith and confidence that the agency’s mis-
     application controls. KPMG did not disclose any           sion, programs, and functions are fair and impartial.
     instances of noncompliance with certain provisions              At GPO, the Agency’s ethics program is admin-
     of laws, regulations, and other matters required to be    istered by the Office of the General Counsel (OGC).
     reported under Government Audit Standards.                The ethics program must comply with the Ethics in
          During this reporting period, KPMG was also          Government Act of 1978, as well as other statutes as
     awarded the contract to perform the 2011 audit of         described in GPO Instruction 655.3A, “Standards of
     GPO’s consolidated financial statements.                  Conduct for Government Printing Office Officers
                                                               and Employees,” dated June 10, 1988. The instruc-
                                                               tion establishes the standards of ethical and finan-
     C. AUDIT AND INSPECTION REPORTS
                                                               cial conduct for GPO employees, consultants, advis-
                                                               ers, and other special Government employees, and
     1. Audit Report 11-01
                                                               requires that GPO personnel maintain high stan-
     (Issued December 16, 2010)
                                                               dards of moral and ethical conduct; consistently
     Government Printing Office’s Ethics Program               exercise honesty, integrity, and impartiality in the
     An agency’s ethics program is the formalized means by     performance of their duties; and avoid any actions
     which senior management can educate and enlighten         that might adversely reflect on the Agency.




22   O F F I C E   O F   I N S P E C TO R   G E N E R A L
      An audit of the Agency’s ethics program was                The portability of a notebook or laptop computer
performed to determine whether GPO complied                makes it a useful tool for teleworking and can thus
with applicable Federal ethics guidance and the            facilitate the important COOP function. GPO issues
ethics program at GPO was consistent with Federal          laptops to about one in four employees. Between
Government best practices. Although it did not iden-       2005 and 2009, GPO records revealed that employ-
tify specific instances of ethics violations or noncom-    ees were issued 629 laptops with a total purchase
pliance, the audit did find that GPO did not have an       price of $1,389,855—an average of $2,210 per laptop.
established ethics program consistent with Federal               Due in part to previous investigations of the
Government best practices. For example, OGC did            security and inventory control lapses in the man-
not have written standard operating procedures for         agement of Agency laptop computers, we conducted
routine ethics officer responsibilities; did not always    an audit of the control and accountability of laptop
document its handling of ethics-related matters; and       computers at GPO. The objectives of the audit were to
has not updated ethics policies, which are between         determine whether GPO could account for all Agency
22 and 38 years old and refer to offices or procedures     laptop purchases, and had adequate controls in place
that no longer exist.                                      that would prevent the loss or theft of laptops.
      Further, a majority of Agency employees who                The audit found that based on our testing of
completed a survey on GPO’s ethical climate and the        a statistical sample of laptops issued to personnel
effectiveness of the ethics program did not believe        between 2005 and 2009, we estimated with 99-per-
or were unsure whether GPO’s culture and atmo-             cent confidence that GPO could not account for
sphere promote ethical behavior and conduct. As            between 150 and 213 laptops. The total purchase
a result, Agency assets and operations may be at           price value of the missing laptops was between
greater risk because of potential misconduct and           $331,500 and $470,730. Agency management could
unethical behavior.                                        not provide an explanation as to the location of the
      In general, the audit recommended that the           missing laptops. The audit further showed that GPO
Agency require employees to undergo regular eth-           could not account for the laptops in part because
ics training, update ethics policies to reflect Federal    management did not establish standard operating
Government best practices, and improve admin-              procedures to implement written policies on prop-
istration of the ethics program. The recommenda-           erty control and accountability for laptops.
tions should improve the Agency’s ethics program                 In addition, internal controls within GPO for
and, in turn, the Agency’s overall ethical culture.        preventing the loss of laptops need improvement
Management generally concurred with the recom-             as evidenced by the inability of the Agency to pro-
mendations and the planned corrective actions are          duce reports of either acquisition or disposition of
considered to be responsive.                               laptops, or to account for laptops from purchase to
                                                           final disposition. GPO also did not meet its objec-
2. Audit Report 11-02
                                                           tives outlined in GPO Instruction 705.29, “IT End
(Issued December 6, 2010)
                                                           User Asset Management,”, November 5, 2005, for
Control and Accountability of Laptop Computers             maintaining a centralized end user asset manage-
Government-issued notebook or laptop comput-               ment program that verifies duplicative purchases
ers are at risk of loss and theft because of their high    are not made, and gathers information for disaster
value, portability, and ease of concealment. Because       recovery planning. While the actual impact of the
of their ability to store large amounts of data, lost or   missing laptops is not known, failure to adequately
stolen laptops also create a risk of exposing PII and      account for laptops could have resulted in inadver-
sensitive Government information. The inability to         tent exposure of sensitive GPO business information
account for laptops has been prevalent throughout          about acquisitions and human capital as well as the
the Federal Government, and the GPO has experi-            manufacture and issuance of security documents
enced instances of missing laptops.                        such as U.S. passports.



                                                           SEMIANNUAL REPORT TO CONGRESS                            23
                                                             of the Federal Government. During this reporting
                                                             period, the OIG continued to oversee the efforts of
                                                             American Systems as it conducted IV&V for public
                                                             release of FDsys. As part of its contract with the OIG,
                                                             American Systems is assessing the state of program
                                                             management, technical and testing plans, and other
                                                             efforts related to the rollout of Release 1. The contract
                                                             requires that American Systems issue a quarterly
                                                             Risk Management, Issues, and Traceability Report,
                                                             and provide to the OIG observations and recommen-
                                                             dations on the program’s technical, schedule, and
                                                             cost risks as well as requirements traceability of those
                                                             risks and the effectiveness of the program manage-
                                                             ment processes in controlling risk avoidance.
                                                                  The thirteenth quarterly report covers the period
                                                             from August 1, 2010, through October 21, 2010. During
                                                             the review period, IV&V did not identify any new tech-
                                                             nical, cost, or schedule risks. The report does, how-
                                                             ever, discuss issues and concerns brought to man-
                                                             agement’s attention as the PMO implements the
                                                             remaining efforts to complete Release 1 and shut down
                                                             GPO Access. The issues and concerns were already
                                                             encompassed by open recommendations provided to
                                                             the PMO in previous IV&V Quarterly Reports.

                                                             4. Assessment Report 11-05
                                                             (Issued March 29, 2011)
          In general, we made seven recommendations
                                                             Federal Digital System (FDsys) Independent
     to develop standard operating procedures for laptop
                                                             Verification and Validation – Fourteenth Quarter
     acquisition, management, and cradle-to-grave inven-
                                                             Report on Risk Management, Issues, and
     tory tracking and disposition. If implemented, the
                                                             Traceability
     recommendations should help improve control and
                                                             The fourteenth quarterly report on FDsys covers the
     accountability over laptops. Management concurred
                                                             period from October 22, 2010, through March 11, 2011.
     with each of the report’s recommendations and we
                                                             During the fourteenth quarter, FDsys replaced GPO
     consider the planned corrective actions responsive
                                                             Access as GPO’s official system of record. Specifically,
     to the recommendations.
                                                             on December 20, 2010, the Public Printer approved the
     3. Assessment Report 11-03                              declaration that makes FDsys the trusted source of
     (Issued December 15, 2010)                              authentic and official Government publications, that
                                                             is, FDsys is now the GPO’s official system of record.
     Federal Digital System (FDsys) Independent Verifi-
                                                                  This declaration was made based on the official
     cation and Validation – Thirteenth Quarter Report
                                                             GPO content being available in FDsys rather than
     on Risk Management, Issues, and Traceability
                                                             development and fulfillment of specific criteria; there
     The FDsys program is intended to modernize the          is no Industry Standard or Best Practices to be fol-
     information collection, processing, and dissemina-      lowed to designate a system as the official system
     tion capabilities GPO performs for the three branches   of record.




24   O F F I C E   O F   I N S P E C TO R   G E N E R A L
      The PMO developed a Release 1 Master Plan (the            SECAPS receives and maintains PII for purposes
Plan), which delineates tasks and activities that had to   of card production. Recent breaches of PII at several
be completed before designation of FDsys as the offi-      Federal agencies increased the level of scrutiny over
cial system of record. However, the Plan also depicts a    the handling of that type of sensitive information. To
number of tasks not yet completed. For example, the        help protect against breaches as well as maintain an
Requirements Traceability Verification Matrix (RTVM)       appropriate level of security, Federal programs must
was not completed, and the performance and capacity        ensure that controls over PII data are in place.
testing that was demonstrated did not meet one of the           The audit of SECAPS was performed to deter-
key requirements allocated to Release 1. Those items       mine whether a requisite level of IT security con-
were significant because they demonstrate the stabil-      trols in SECAPS maintained system integrity, confi-
ity, extensibility, and availability of the FDsys.         dentiality, and availability. Specific audit objectives
      GPO Access will continue to run in concert with      included determining the adequacy of controls asso-
FDsys because a number of other tasks still needs          ciated with the SECAPS operating system, databases,
to be completed. Those tasks include processing            physical security, system interconnections and the
quarantined packages and performance of an audit           transmission of PII, and purging of PII.
that will ensure all content was migrated from GPO              We issued a sensitive report that identifies
Access to FDsys.                                           opportunities to strengthen IT security controls
      During the period, IV&V did not identify any         and further reduce the potential risk of system com-
new technical, cost, or schedule risks. The report         promise. Management concurred with each of the
does discuss issues and concerns that we are bring-        report’s recommendations and has either taken or
ing to management’s attention as the PMO imple-            proposed responsive corrective actions.
ments the remaining efforts to complete Release
1 and shut down GPO Access. The issues and con-
                                                           D. ONGOING WORK
cerns were already encompassed by open recom-
mendations provided to the PMO in previous IV&V            OAI has several audits and assessments ongoing
Quarterly Reports.                                         whose results should be published during the next
                                                           reporting period. Those assignments include:
5. Audit Report 11-06                                          An audit of GPO’s Administration of the FDsys
(Issued March 31, 2011)
                                                           Master Integrator Contract will determine whether
Secure Card Personalization System Information
Technology Security Controls
GPO provides personalized smartcards and iden-
tity cards for customers throughout the Federal
Government. The Secure Card Personalization
System (SECAPS) is the automated system used for
producing the cards. SECAPS was developed by
GPO through a contract with General Dynamics
Information Technology and designed to create
personalized embossed identity cards, Homeland
Security Presidential Directive No. 12 (HSPD-12)
compliant smartcards, and high-frequency radio fre-
quency identification cards. GPO produces cards for
the Department of Homeland Security’s Customs and
Border Protection’s Trusted Traveler Program and for
the Center for Medicare and Medicaid Services in the
Department of Health and Human Services.


                                                           SEMIANNUAL REPORT TO CONGRESS                             25
     GPO effectively administered the contract. The           (3) request, approval, calculation, and administra-
     audit will specifically determine whether GPO            tion of daily and weekly overtime; (4) calculation
     adhered to the Materials Management Acquisition          and administration of bi-weekly and annual earn-
     Regulation and other applicable laws, rules, regu-       ings limits and salary caps; and (5) calculation, pay-
     lations, and guidance related to (1) contract award;     ment, and administration of the GPO Goal Sharing
     (2) monitoring of contract performance; (3) contract     Program.
     modifications; (4) verification of costs incurred; and         An assessment of GPO’s Electronic Passport
     (5) contract closeout.                                   Tracking System Application Controls will evaluate
          An audit of the GPO Express Program will            whether application-level controls in the passport
     evaluate management controls over the program,           inventory tracking system are effective to track and
     including whether (1) GPO Express cards were ade-        report the status of e-Passport production.
     quately controlled and issued, (2) contract terms
     between FedEx Kinkos and GPO were complied
                                                              E . STATUS OF OPEN
     with, and (3) revenues reflected program activity.       RECOMMENDATIONS
          Agency management requested that the OIG
     assess compliance of GPO’s payroll operations            Management officials made progress in imple-
     with applicable laws, rules, and regulations. The        menting and closing many of the recommendations
     audit will determine whether GPO complied with           identified during previous semiannual reporting
     applicable guidance related to the (1) request and       periods. For the 28 recommendations still open, a
     approval of LWOP; (2) request, approval, calcula-        summary of the findings and recommendations,
     tion, and administration of advanced annual leave;       along with the status of actions for implementing
                                                              the recommendation and OIG comments, follow.




26   O F F I C E   O F   I N S P E C TO R   G E N E R A L
1. Assessment Report 09-01                               Report on Risk Management, Issues, and Trace-
(Issued November 4, 2008)                                ability

Federal Digital System (FDsys) Independent               FIN DING
Verification and Validation (IV&V) - Fourth              This fifth quarterly report provides an overview of
Quarter Report on Risk Management, Issues, and           the key risks and issues identified by the FDsys IV&V
Traceability                                             team from July through September 2008, including
                                                         those related to the FDsys detail design and system
FIN DING
                                                         integration testing as well as technical, schedule,
The OIG contracted with American Systems, a
                                                         and cost risks the program faces.
company with significant experience in the realm
of IV&V for Federal civilian and Defense Agencies,       R E C O M M E N DA T I O N
to conduct IV&V for the first public release of FDsys.   The OIG made 10 recommendations to management
As part of its contract, the contractor is assessing     intended to further strengthen management of the
the state of program management, technical and           FDsys program.
testing plans, and other efforts related to this pub-    M A NAGE M E N T COM M E N T S
lic release. The contractor is required to issue to      Management concurred with six of the recom-
the OIG a quarterly Risk Management, Issues, and         mendations, partially concurred with one, and
Traceability Report providing observations and           nonconcurred with three. Management proposed
recommendations on the program’s technical,              responsive corrective actions to six of the recom-
schedule and cost risks, as well as requirements         mendations. Although we disagreed with man-
traceability of those risks and the effectiveness        agement’s position on the remaining four recom-
of the program management process in control-            mendations, we accepted management’s proposed
ling risk. During the period the report covers, GPO      alternative corrective actions.
launched a public beta version of FDsys contain-         OIG COM MEN TS
ing a limited number of collections. This fourth         One recommendation remains open. Management
quarterly report provides an overview of the key         continues to take responsive actions to implement
risks and issues identified by the FDsys IV&V team       the remaining recommendation.
from April through June 2008, including security
requirements and risk management.                        3. Assessment Report 09-07
                                                         (Issued March 20, 2009)
R E C O M M E N DA T I O N
The OIG made five recommendations to manage-             Federal Digital System (FDsys) Independent Veri-
ment intended to further strengthen management           fication and Validation (IV&V) – Sixth Quarter
of the FDsys program.                                    Report on Risk Management, Issues, and
M A NAGE M E N T COM M E N T S                           Traceability
Management concurred with each recommenda-
                                                         FIN DING
tion and proposed responsive corrective actions.
                                                         This sixth quarterly report provides an overview of
OIG COM MEN TS                                           the key risks and issues identified by the FDsys IV&V
One recommendation remains open for which man-           team from October 2008 through January 9, 2009,
agement continues to work on implementing cor-           including security, and the state of program activi-
rective actions.                                         ties required for deployment, as well as technical,
                                                         schedule, and cost risks.
2. Assessment Report 09-03
(Issued December 24, 2008)                               R E C O M M E N DA T I O N
                                                         The OIG made four recommendations intended
Federal Digital System (FDsys) Independent Veri-         to further strengthen management of the FDsys
fication and Validation (IV&V) – Fifth Quarter           program.



                                                         SEMIANNUAL REPORT TO CONGRESS                           27
     M A NAGE M E N T COM M E N T S                            R E C O M M E N DA T I O N
     Management concurred with each recommendation             The OIG made 25 recommendations designed to
     and proposed responsive corrective actions.               strengthen FDsys program management, particu-
     OIG COM MEN TS                                            larly for future FDsys releases.
     Two recommendations remain open. Management               M A NAGE M E N T COM M E N T S
     continues to take responsive actions to implement         Management generally concurred with all recom-
     the two open recommendations.                             mendations, with the exception of one, and proposed
                                                               responsive corrective actions for each.
     4. Assessment Report 09-12
     (Issued September 30, 2009)                               OIG COM MEN TS
                                                               A total of nine recommendations remain open for
     Federal Digital System (FDsys) Independent Verifica-      which the OIG and IV&V continue to monitor the sta-
     tion and Validation (IV&V) – Seventh Quarter Report       tus of their implementation.
     on Risk Management, Issues, and Traceability
                                                               5. Assessment Report 10-01
     FIN DING                                                  (Issued December 2, 2009)
     This seventh quarterly report for the period January
     1, 2009, through May 8, 2009, identifies critical tech-   Federal Digital System (FDsys) Independent Veri-
     nical, schedule, and cost risks for the FDsys Program.    fication and Validation – Ninth Quarter Report on
     The report provides a high-level overview of the key      Risk Management, Issues, and Traceability
     risks and issues that IV&V identified during the          FIN DING
     reporting period. The report also discusses IV&V          This ninth quarterly report for the period July 1,
     assessments covering FDsys security and the state         2009, through September 30, 2009, identifies criti-
     of program activities required for deployment per-        cal technical, schedule, and cost risks for the FDsys
     formed over the same time period.                         Program. The report provides a high-level overview




28   O F F I C E   O F   I N S P E C TO R   G E N E R A L
Table of Open Recommendations
                                                                   NUMBER OF OPEN                     NUMBER OF
     AUDIT
                                                                 RECOMMENDATIONS                   MONTHS OPEN

     09-01 Federal Digital System (FDsys) Independent Veri-
     fication and Validation (IV&V) - Fourth Quarter Report on                       1                          28
     Risk Management, Issues, and Traceability


     09-03 FDsys IV&V – Fifth Quarter Report on Risk
                                                                                     1                          27
     Management, Issues, and Traceability



     09-07 FDsys IV&V – Sixth Quarter Report on Risk
                                                                                     2                          24
     Management, Issues, and Traceability


     09-12 Federal Digital System (FDsys) Independent
     Verification and Validation (IV&V) – Seventh Quarter                            9                          18
     Report on Risk Management, Issues, and Traceability


     10-01 FDsys IV&V – Ninth Quarter Report on Risk
                                                                                     2                          15
     Management, Issues, and Traceability



     10-03 GPO’s Compliance With the Federal Information
                                                                                    13                          14
     Security Management Act




of the key risks and issues that IV&V identified dur-             6. Assessment Report 10-03
ing the reporting period. The report also discusses               (Issued January 12, 2010)
IV&V assessments covering FDsys security and the
                                                                  GPO’s Compliance with the Federal Information
state of program activities required for deployment
                                                                  Security Management Act
performed over the same time period.
R E C O M M E N DA T I O N                                        FIN DING

The OIG made 11 recommendations to management                     FISMA requires that each executive branch agency
designed to strengthen FDsys management.                          develop, document, and implement an agency-wide
                                                                  program for providing information security for the
M A NAGE M E N T COM M E N T S
                                                                  information and information systems that support
Management generally concurred with the recom-
                                                                  the operations and assets of the agency, including
mendations and has either taken or proposed respon-
                                                                  those provided or managed by another agency, con-
sive corrective actions.
                                                                  tractor, or other source. Although a legislative branch
OIG COM MEN TS                                                    agency, GPO recognizes the need to be FISMA com-
Two recommendations remain open for which the                     pliant because of the services it provides, including
OIG and IV&V continue to monitor the status of their              services to executive branch agencies.
implementation.                                                        In FY 2007, the OIG contracted with a consult-
                                                                  ing firm to perform a baseline assessment of GPO’s
                                                                  FISMA compliance and to evaluate the design and



                                                                 SEMIANNUAL REPORT TO CONGRESS                              29
     effectiveness of the controls over GPO’s informa-
     tion security program, policies, and practices. We
     completed a full FISMA assessment in FY 2009. The
     assessment was performed using the most recent
     applicable FISMA requirements and guidelines pub-
     lished by OMB and NIST. Significant emphasis was
     placed on evaluating the GPO systems used for pro-
     viding services to client agencies. The OIG issued
     a sensitive report concluding that GPO made some
     progress in complying with FISMA, but that addi-
     tional improvements are needed. In addition, many
     of the weaknesses identified during the FY 2007 base-
     line assessment still exist.
     R E C O M M E N DA T I O N
     The OIG made a total of 21 recommendations, which,
     if implemented, will help further move GPO toward
     FISMA compliance.
     M A NAGE M E N T COM M E N T S
     Management concurred with each recommendation
     and proposed responsive corrective actions.
     OIG COM MEN TS
     Management continues to work with the OIG to
     implement corrective actions on the remaining 13
     open recommendations.




30   O F F I C E   O F   I N S P E C TO R   G E N E R A L
                   O F F I C E          O F      I N V E S TI G ATI O N S




O
           I receives and evaluates complaints and     A . SUMMARY OF INVE STIGATIVE
           conducts investigations related to fraud,   ACTIVIT Y
           waste, and abuse in GPO programs and
                                                       At the end of the last reporting period, 17 com-
operations. OI is focused on procurement fraud
                                                       plaints were open. OI opened 32 new complaint
investigations, but also investigates allegations of
                                                       files, of which 6 were opened into full investiga-
bribery, false statements, theft, and other employee
                                                       tions. Additionally, 21 complaints were closed with
and contractor misconduct.
                                                       no action, 4 were referred to other law enforcement
     Investigations that substantiate violations of
                                                       organizations, 1 was associated with an active inves-
Federal law, GPO Directives, or contract terms/
                                                       tigation, and 14 were referred to management. At
specifications may result in administrative sanc-
                                                       the end of the reporting period, three complaints
tions, civil action, or criminal prosecution. Such
                                                       were open.
actions can include employee terminations, con-
                                                            At the end of the last reporting period, 33 inves-
tractor debarments, and court-imposed prison
                                                       tigations were open. During this reporting period,
terms, probation, fines, or restitution. OI may also
                                                       seven investigations were opened and nine were
issue Management Implication Reports to the
                                                       closed. Seven of the closed investigations were
Agency that detail systemic problems or vulner-
                                                       referred to management, and two were closed with
abilities and offer recommendations on how to
                                                       the Agency having taken action.
correct them.
                                                            During the last 6 months, OI made 12 presenta-
     OI also conducts investigations at all GPO
                                                       tions to DOJ officials. Those presentations resulted
locations, including its 15 Regional Printing
                                                       in 10 criminal declinations, 1 civil declination, and
Procurement Offices and potentially thousands
                                                       1 civil acceptance. OI continues to work with DOJ
of contract print vendors nationwide. It maintains
                                                       on several ongoing investigations.
a close relationship with GPO Security Services
                                                            The IG issued 28 subpoenas to further ongoing
and the Uniform Police Branch to coordinate law
                                                       criminal, civil, and administrative investigations.
enforcement efforts impacting GPO. Liaison is also
                                                       Documents requested included financial records, bid
maintained with DOJ, the OIG community, and
                                                       preparations, production records, and agreements
other law enforcement agencies and organizations.
                                                       among contractors and/or affiliated companies.




                                                       SEMIANNUAL REPORT TO CONGRESS                             31
     B. T YPE S OF CA SE S
     Procurement Fraud
     OI continues to focus its investigative resources on
     identifying and investigating procurement fraud.
     The investigations focus on contractor and GPO
     employee misconduct that adversely impacts the
     contracting process. Violations include false state-
     ments, false claims, product substitution, collusive
     bidding, bribery, kickbacks, and financial conflicts
     of interest. In FY 2010, GPO procured more than
     $600 million in goods and services through con-
     tracting. That figure includes at least $450 million
     in contracts awarded to print contractors selected
     from a pool of thousands of pre-qualified vendors.
     OI recognizes print procurement as a significant risk
     area and procurement fraud investigations repre-
     sent more than 70 percent of the OI case inventory.
     Including allegations in complaint status, OI has 24
     open procurement investigations.

     Workers’ Compensation Fraud
     OI also investigates GPO employees who alleg-
     edly submit false claims or make false state-
     ments to receive workers’ compensation benefits.
     Investigations may result in criminal prosecutions,
     civil recoveries, or administrative action levied
     against employees by GPO or the Department of
     Labor. OI has four ongoing investigation involving
     allegations of workers’ compensation fraud.

     Employee Misconduct                                           or other criminal activity has in fact occurred. The
     OI routinely investigates allegations of employee             findings of proactive initiatives result in Management
     c r i m i na l a nd ad m i n i st r at ive m i sc onduc t .   Implication Reports or spin-off investigations of pro-
     Allegations can be violations of Federal and local            curement fraud, employee misconduct, or other types
     laws or failures to follow GPO Directives. Penalties          of violations. OI opened one procurement-related pro-
     for employee misconduct range from verbal coun-               active initiative during the last reporting period.
     seling to termination and/or criminal prosecution.
                                                                   Other Investigations
     OI has one open complaint and three full investiga-
     tions involving alleged employee misconduct.                  OI conducts other types of investigations that do not
                                                                   fall into one of the previous categories. Examples of
     Proactive Initiatives                                         those types of investigations include unauthorized
     While conducting reactive investigations, OI may iden-        use or access to GPO systems, and requests for infor-
     tify business units, programs, and/or procurements            mation or assistance from outside entities. During
     that are vulnerable to fraud. In those instances, OI may      this reporting period, OI completed one preliminary
     open proactive initiatives to identify whether fraud          investigation at the request of another OIG.




32   O F F I C E   O F    I N S P E C TO R      G E N E R A L
C. SUMMARY OF INVE STIGATIVE                              accrue compensatory time in lieu of overtime in
ACCOMPLISHMENTS                                           violation of a GPO Directive. The employee main-
                                                          tained a personal record of the compensatory time,
Criminal and Civil Cases
                                                          which he calculated at a rate of time and a half. OI
As previously reported, an OI investigation found
                                                          referred the findings to management, who coun-
evidence that a GPO printing contractor failed to
                                                          seled the employee. OI also referred the information
comply with critical contract specifications. The
                                                          to Finance and Administration who determined that
case was subsequently accepted for action by DOJ,
                                                          GPO owed the employee $437.02.
and the contractor agreed to pay a $25,000 settle-
                                                                OI referred to management the findings of an
ment of U.S. penalty claims. During this report-
                                                          investigation into allegations a GPO employee mis-
ing period, the contractor and three officers were
                                                          appropriated and disposed of Government prop-
debarred from doing business with GPO beginning
                                                          erty in violation of GPO Directives. The investiga-
October 31, 2010, and ending October 31, 2012.
                                                          tion revealed management allowed the employee
     OI continues an investigation into allegations of
                                                          to purchase surplus GPO property without proper
false statements, false claims, forgery, or bid collu-
                                                          approval. OI also found that management failed
sion by GPO print vendors. During the last reporting
                                                          to maintain complete sales records for some pur-
period, one subject pled guilty to one count of false
                                                          chases made by the employee, including the sale of
statements and is pending sentencing. OI has the
                                                          two forklift trucks for $50.00. The lack of required
assistance of the DOJ Antitrust Division, which is
                                                          documentation prohibited OI from assessing the
in the process of negotiating a plea agreement with
                                                          legitimacy of that purchase.
a second subject.
                                                                OI referred to the Office of General Counsel, GPO
     OI also continues an investigation of allegations
                                                          management, and OAI the findings of an investiga-
relating to false statements and/or false claims to
                                                          tion into allegations a manager had a conflict of inter-
GPO. During this reporting period OI served 10 sub-
                                                          est because of previous employment. It was further
poenas, and the DOJ Antitrust Division is still eval-
                                                          alleged the employee violated GPO Directives when he
uating the case for possible criminal or civil action.
                                                          changed publication shipment procedures. The inves-
     OI continues an investigation of allegations
                                                          tigation found no evidence the manager violated any
relating to false statements and/or false claims to the
                                                          laws or GPO Directives; however, GPO has no direc-
GPO. During this reporting period, OI served one
                                                          tives pertaining to publication shipment procedures.
subpoena and is working with DOJ as they evaluate
                                                                OI referred to management the results of an
the case for possible criminal action.
                                                          investigation into allegations that prior to being
Internal Administrative Cases                             hired a GPO employee made false statements con-
                                                          cerning the details of a criminal conviction. OI con-
OI referred to management the findings of an inves-
                                                          firmed that the employee provided false informa-
tigation into allegations that three GPO employees
                                                          tion on his Optional Form (OF) 306, “Declaration
committed time and attendance fraud. The inves-
                                                          for Federal Employment.” Additionally, the investi-
tigation revealed the three employees were absent
                                                          gation revealed that after being hired the employee
from GPO for periods of approximately 1 to 4 hours
                                                          misused his Government-issued travel card.
and came back to work intoxicated. Each of the three
                                                          Determination of administrative action is pending.
employees admitted they occasionally exceeded
                                                                As previously reported, a GPO employee admit-
their allotted lunch break and went to strip clubs
                                                          ted to knowingly misusing GPO’s FedEx account
and drank alcoholic beverages before returning to
                                                          to ship several personal packages over the course
GPO. Administrative action was proposed against
                                                          of several years.  OI referred the findings to man-
the three employees and their direct supervisor.
                                                          agement for action, who proposed and sustained a
     During the course of the previous investigation,
                                                          10-day suspension based on the charge of unauthor-
OI also identified an employee who was allowed to
                                                          ized use of Government property.



                                                          SEMIANNUAL REPORT TO CONGRESS                              33
           Also previously reported, an OI investigation     External Administrative Cases
     substantiated that three employees used a duplicate     As previously reported, OI referred to the Office of
     GPO identification badge to engage in time and atten-   General Counsel for consideration of suspension/
     dance fraud. OI referred the case for administrative    debarment the findings of an investigation into alle-
     action and management imposed two 5-day suspen-         gations that a GPO contractor submitted a fraudulent
     sions and one 2-day suspension for failure to coop-     shipping receipt and invoice to GPO for payment. The
     erate with the GPO Uniformed Police Branch, lack of     investigation revealed the company delivered only a
     candor, and inappropriate behavior.                     partial shipment, but billed GPO for the full value of
           An OI investigation of a GPO employee deter-      the contract. During this reporting period, the con-
     mined he used his official e-mail to correspond with    tractor and two officers were debarred from doing
     individuals who subsequently defrauded him of sev-      business with GPO beginning October 31, 2010, and
     eral thousand dollars. OI referred the matter to man-   ending October 31, 2013.
     agement for information and appropriate action.              OI referred to the Office of General Counsel for
           OI also referred to management and OAI the        consideration of suspension/debarment the findings
     findings of an investigation into allegations that      of the following investigations:
     a GPO employee submitted falsified physician’s
                                                             ■   Allegations that a GPO contractor was operating
     notes to justify his use of Family Medical Leave
                                                                 two businesses from the same location and sub-
     Act (FMLA)/LWOP. The investigation found no evi-
                                                                 mitting bids for both companies on the same solic-
     dence the employee provided false notes; however,
                                                                 itations. The investigation substantiated that the
     the investigation did reveal he used FMLA/LWOP
                                                                 contractor made false statements to GPO regard-
     without authorization on numerous occasions over
                                                                 ing the location of his businesses and submitted
     a 3-month period. Administrative action against the
                                                                 bids for both companies on the same solicitations
     employee is pending.




34   O F F I C E   O F   I N S P E C TO R   G E N E R A L
    in violation of GPO contract terms. In addition, the    action against them; and the second and third shifts
    contractor submitted false shipping documenta-          are potentially overstaffed, creating the opportunity
    tion as a claim for full payment on a contract he       for employee misconduct.
    knew was incomplete.                                         The OI recommended that management:
■  Allegations that a GPO printing contractor submit-       ■   Establish rating criteria in Plant Operations super-
   ted falsified Bills of Lading to GPO with invoices for       visors’ performance plans to hold them account-
   payment. The investigation revealed the contrac-             able for managing the performance and conduct
   tor altered the shipping dates on 16 Bills of Lading         of subordinates.
   to reflect the materials had been shipped on an          ■   Develop and implement policies and procedures
   earlier date.                                                that define how packers and other Printing Plant
      OI referred to management the findings of an              workers are used on the second and third shifts
investigation into allegations that an individual sub-          and how work is scheduled.
mitted two bids for a fixed-price contract under the
                                                            ■   Require division-level Superintendents to perform
names of two different contractors. The investiga-
                                                                and document random inspections of each shift.
tion substantiated the allegation, but found no other
instances that the individual submitted multiple bids
                                                            ■   Review staffing and productivity of the different
for the same GPO solicitation.                                  divisions within Plant Operations, to include the
      OI referred to management information that a              number of employees on all shifts, the number
GPO vendor defaulted on a contract and then subse-              of authorized overtime hours, the productivity of
quently bid on the resultant re-solicitation as a differ-       each division and shift, and the assignment of work
ent company. The OI investigation found no evidence             between the shifts.
that the vendor made specific false statements to                Although the OIG requested that management
GPO; however, the vendor was found to have violated         respond to the recommendations by January 12, 2011,
the requirement for a Certification of Independent          no Agency response had been issued by the end of
Price Determination in GPO Contract Terms.                  this reporting period.
      An OI preliminary investigation into an alle-              On December 22, 2010, OI issued a Management
gation that a vendor knowingly supplied GPO with            Implication Report summarizing serious lapses in
inferior ink was found to not have merit. However, as       management of GPO surplus property and offering
a result of the inquiry, OI identified and referred to      recommendations to improve the sufficiency of and
management and OAI information concerning paper             adherence to GPO Directives. An OI investigation in
waste and paper roll mishandling.                           part found that GPO officials failed to comply with
                                                            a requirement to report incidents of lost, stolen, or
                                                            missing property to the Uniform Police Branch; GPO
D. MANAGEMENT IMPLICATION
REPORTS                                                     property was disposed of without proper documen-
                                                            tation; and GPO Directives pertaining to property
On November 12, 2010, OI issued a Management                disposition either did not exist or needed revision.
Implication Report summarizing concerns and                      The OI recommended that management:
offering recommendations to improve supervisory
                                                            ■   Hold Property Managers accountable for all
controls, employee accountability, safety and pro-
                                                                improperly disposed property under their control
ductivity, and efficient use of human resources in
                                                                and consider any surplus property disposed of in a
Plant Operations. An OI investigation in part found
                                                                manner inconsistent with GPO Directives as mis-
that Plant Operations management had no gen-
                                                                appropriated or stolen.
eral accountability for their second and third shift
employees; some supervisors knew that employ-
                                                            ■   Formalize in writing a donation and bidding pro-
ees frequently were AWOL, but took no disciplinary              cess for disposing of surplus property items that
                                                                aligns with 41 CFR § 102.37 and 38, the U.S. General




                                                            SEMIANNUAL REPORT TO CONGRESS                              35
         Services Administration Federal Surplus Personnel
         Property Program.
     ■   Adopt minimum pricing guidelines that would
         eliminate subjective and potentially biased pric-
         ing methods currently in use.
     ■   Revise and consolidate existing GPO Directives
         related to surplus property address all outdated,
         inaccurate, and duplicated information.
          Although the OIG requested that management
     respond to the recommendations by February 22,
     2011, no Agency response had been issued by the end
     of this reporting period.




36   O F F I C E   O F   I N S P E C TO R   G E N E R A L
                                        A PPE N D I C E S




APPENDIX A                                              and responsive action once resolution is reached on
                                                        an IG recommendation.
Glossary And Acronyms
                                                             Funds Put To Better Use– An IG recommen-
                                                        dation that funds could be used more efficiently if
Glossary
                                                        management took actions to implement and com-
     Allowable Cost– A cost necessary and reason-       plete the audit or inspection recommendation.
able for the proper and efficient administration of a        Ma nagement Decision– A n ag reement
program or activity.                                    between the IG and management on the actions
     Cha nge i n Ma nagement Decision– A n              taken or to be taken to resolve a recommendation.
approved change in the originally agreed-upon           The agreement may include an agreed-upon dollar
corrective action necessary to resolve an IG recom-     amount affecting the recommendation and an esti-
mendation.                                              mated completion date, unless all corrective action
     Disallowed Cost– A questionable cost arising       is completed by the time agreement is reached.
from an IG audit or inspection that management               Management Implication Report– A report
decides should not be charged to the Government.        to management issued during or at the completion
     Disposition– An action that occurs from            of an investigation identifying systemic problems
management’s full implementation of the agreed-         or advising management of significant issues that
upon corrective action and identification of mon-       require immediate attention.
etary benefits achieved (subject to IG review and            Material Weakness– A significant deficiency, or
approval).                                              combination of significant deficiencies that results
     Final Management Decision– A decision ren-         in more than a remote likelihood that a material
dered by the GPO Resolution Official when the IG        misstatement of the financial statements will not
and the responsible GPO manager are unable to           be prevented or detected.
agree on resolving a recommendation.                         Questioned Cost– A cost the IG questions
     Finding– Statement of problem identified dur-      because of an alleged violation of a law, regulation,
ing an audit or inspection typically having a condi-    contract, cooperative agreement, or other document
tion, cause, and effect.                                governing the expenditure of funds; such cost is not
     Follow-up– The process that ensures prompt




                                                        SEMIANNUAL REPORT TO CONGRESS                           37
     supported by adequate documentation; or the expen-
     diture of funds for the intended purposes was deter-
     mined by the IG to be unnecessary or unreasonable.
          Recommendation– Actions needed to correct or
     eliminate recurrence of the cause of the finding iden-
     tified by the IG to take advantage of an opportunity.
          Resolution– An agreement reached between the
     IG and management on the corrective action or upon
     rendering a final management decision by the GPO
     Resolution Official.
          Resolution Official– The GPO Resolution
     Official is the Deputy Public Printer.
          Resolved Audit/Inspection– A report containing
     recommendations that have all been resolved with-
     out exception, but have not yet been implemented.
         Unsupported Costs– Questioned costs not sup-
     ported by adequate documentation.




38   O F F I C E   O F   I N S P E C TO R   G E N E R A L
Abbreviations and Acronyms

AICPA     American Institute of Certified Public
          Accountants
C&A       Certification and Accreditation
CIGIE     Council of the Inspectors General on
          Integrity and Efficiency
COA       Continuity of Access
COOP      Continuity of Operations
COTR      Cont ract i ng Of f icer’s Tech n ica l
          Representative
DE        Delegated Examining
FDsys     Federal Digital System
FISMA     Federa l I n for mat ion Sec u r it y
          Management Act
FY        Fiscal Year
GAO       Government Accountability Office
GPO       U.S. Government Printing Office
HSPD-12   Homeland Securit y President ia l
          Directive-12
IG        Inspector General
IPA       Independent Public Accountant
IT        Information Technology
IT&S      Information Technology and Systems
IV&V      I n d e p e n d e n t Ve r i f i c a t i o n a n d
          Validation
OALC      Of f ice of Ad m i n ist rat ion/L ega l
          Counsel
OAI       Office of Audits and Inspections
OGC       Office of General Counsel
OI        Office of Investigations
OIG       Office of Inspector General
OMB       Office of Management and Budget
OPM       Office of Personnel Management
OWC       Office of Workers’ Compensation
PII       Personally Identifiable Information
PO        Privacy Officer
RPPO      Regional Printing Procurement Office




                                                               SEMIANNUAL REPORT TO CONGRESS   39
     APPENDIX B
     Inspector General Act Reporting Requirements

         INSPECTOR GENERAL                                                                     CROSS-REFERENCE
                                       REQUIREMENT DEFINITION
         (IG) ACT CITATION                                                                     PAGE NUMBER(S)



         Section 4(a)(2)             Review of Legislation and Regulations                                      8




         Section 5(a)(1)             Significant Problems, Abuses, and Deficiencies                         9-25




         Section 5(a)(2)             Recommendations for Corrective Actions                                22-25




         Section 5(a)(3)             Prior Audit Recommendations Not Yet Implemented                       27-30




         Section 5(a)(4)             Matters Referred to Prosecutorial Authorities                         33-35




         Section 5(a)(5)             Summary of Refusals to Provide Information                              n/a


                                     OIG Audit and Inspection Reports Issued (includes total
         Sections 5(a)(6) and
                                     dollar values of Questioned Costs, Unsupported Costs,                 22-25
         5(a)(7)
                                     and Recommendations that Funds Be Put To Better Use)


                                     Statistical table showing the total number of audit
         Section 5(a)(8)                                                                                        41
                                     reports and the total dollar value of questioned costs


                                     Statistical table showing the total number of audit
         Section 5(a)(9)             reports and the dollar value of recommendations that                       42
                                     funds be put to better use


                                     Summary of prior Audit and Inspection Reports issued
         Section 5(a)(10)                                                                                    n/a
                                     for which no management decision has been made


                                     Description and explanation of significant revised man-
         Section 5(a)(11)                                                                                    n/a
                                     agement decision


                                     Significant management decision with which the IG is in
         Section 5(a)(12)                                                                                   n/a
                                     disagreement




40   O F F I C E   O F   I N S P E C TO R   G E N E R A L
APPENDIX C
Statistical Reports
Table C–1: Audit Reports With Questioned and Unsupported Costs


                                               QUESTIONED   UNSUPPORTED
    DESCRIPTION                                                              TOTAL
                                                   COSTS          COSTS


    Reports for which no management decision
    made by beginning of reporting period              $0            $0         $0




    Reports issued during reporting period             $0            $0         $0




    Subtotals                                          $0            $0         $0




    Reports for which a management decision
    made during reporting period
     1. Dollar value of disallowed costs               $0            $0         $0
     2. Dollar value of allowed costs                  $0            $0         $0




    Reports for which no management decision
    made by end of reporting period                    $0            $0         $0



    Reports for which no management decision
    made within 6 months of issuance                   $0            $0         $0




                                                       SEMIANNUAL REPORT TO CONGRESS   41
                     Table C–2: Audit Reports With Recommendations That Funds
                     Be Put to Better Use


                                                                NUMBER OF   FUNDS PUT TO
                          DESCRIPTION
                                                                 REPORTS     BETTER USE




                          Reports for which no management
                          decision made by beginning of
                          reporting period                              0             $0




                          Reports issued during the
                                                                        0             $0
                          reporting period




                          Reports for which a management
                          decision made during reporting
                          period
                          UÊÊ>ÀÊÛ>ÕiÊvÊÀiVi`>ÌÃÊ           0             $0
                             agreed to by management
                          UÊÊ>ÀÊÛ>ÕiÊvÊÀiVi`>ÌÃÊ           0             $0
                             not agreed to by management




                          Reports for which no management
                          decision made by the end of the
                          reporting period                              0             $0




                          Report for which no management
                          decision made within 6 months of
                          issuance                                      0             $0




42   O F F I C E   O F   I N S P E C TO R    G E N E R A L
Table C–3: List of Audit and Inspection Reports Issued
During Reporting Period


                                                             FUNDS PUT TO
   REPORTS
                                                              BETTER USE



   Report on Audit of Government Printing Office’s
   Ethics Program (Audit Report 11-01, issued
   December 16, 2010)
                                                                       $0




   Report on Audit of Control and Accountability
   of Laptop Computers (Audit Report 11-02, issued
   December 6, 2010)                                                   $0




   Report on Federal Digital System (FDsys)
   Independent Verification and Validation –
   Thirteenth Quarter Report on Risk Management,
   Issues, and Traceability (Assessment Report 11-03,                  $0
   issued December 15, 2010)



   Report on the Consolidated Financial Statement Audit
   of the GPO for the FYs Ended September 30, 2010
                                                                       $0
   and 2009 (Audit Report 11-04, issued
   December 21, 2010)




   Report on Federal Digital System (FDsys) Independent
   Verification and Validation – Fourteenth Quarter Report
                                                                       $0
   on Risk Management, Issues, and Traceability
   (Assessment Report 11-05, issued March 29, 2011)




   Report on Audit of Secure Card Personalization
   System Information Technology Security Controls                     $0
   (Audit Report 11-06, issued March 31, 2011)




    Total                                                              $0




                                            SEMIANNUAL REPORT TO CONGRESS   43
                         Table C– 4: Investigations Case Summary


                            Total New Hotline/Other Allegations Received
                            during Reporting Period                          46


                            Preliminary Investigations (Complaints)          21
                            Closed to the File


                            Complaint Referrals to Other Agencies             4



                            Complaint Referrals to OAI                        4



                            Investigations Opened by OI during
                            Reporting Period                                  7


                            Investigations Open at Beginning of
                            Reporting Period                                 33



                            Investigations Closed during Reporting Period     9



                            Investigations Open at End of Reporting Period   31



                            Referrals to GPO Management
                            (Complaints and Investigations)                  21




44   O F F I C E   O F   I N S P E C TO R   G E N E R A L
Current Open Investigations by Allegation              31



Procurement Fraud                                      22           71%



Employee Misconduct                                     3           10%



Workers’ Compensation Fraud                             4           13%



Proactive Initiatives                                   1            3%



Other Investigations                                    1            3%




                                            ■   Procurement Fraud
                                            ■   Employee Misconduct
                                            ■   Workers’ Compensation Fraud
                                            ■   Proactive Initiatives
                                            ■   Other Investigations




                                            SEMIANNUAL REPORT TO CONGRESS     45
                         Table C–5: Investigations Productivity Summary

                            Arrests                                           1

                            Total Presentations to Prosecuting Authorities   12

                            Criminal Acceptances                              0

                            Criminal Declinations                            10

                            Indictments                                       0

                            Convictions                                       1

                            Guilty Pleas                                      1

                            Probation (months)                                0

                            Jail Time (days)                                  0

                            Civil Restitutions                                0

                            Civil Acceptances                                 1

                            Civil Agreements                                  0

                            Civil Declinations                                1

                            Amounts Recovered Through
                            Investigative Efforts                             0

                            Total Agency Cost Savings Through
                             Investigative Efforts                            0

                            Total Administrative Referrals

                            Contractor Debarments                             7

                            Contractor Suspensions                            0

                            Contractor Other Actions                          0

                            Employee Suspensions                              4

                            Proposed Employee Suspensions                     4

                            Employee Terminations                             0

                            Inspector General Subpoenas                      28




46   O F F I C E   O F   I N S P E C TO R        G E N E R A L
APPENDIX D -PEER RE VIEW RE SULTS
This appendix complies with Section 5(a)(14)-(16) of       as amended, the GPO OIG is not required to undergo
the IG Act of 1978, as amended.                            an external peer review process of its investigative
                                                           function. Nevertheless, the OIG voluntarily requests
A . PEER RE VIEW OF THE AUDIT                              external peer reviews of its investigative function.
FUNCTION                                                         The National Science Foundation OIG con-
Under generally accepted government auditing stan-         ducted the peer review of the GPO OIG investigative
dards, OIG audit functions must have an external           function during this reporting period. On March 11,
peer review at least every 3 years. The LOC OIG con-       2011, the National Science Foundation OIG issued its
ducted a peer review of the GPO OIG audit function         opinion and found that the system of internal safe-
during this reporting period. On March 25, 2011,           guards and management procedures for the investi-
the LOC OIG issued its Peer Review Report of the           gative function for the year ended 2010 complies with
GPO OIG audit function and found that the system           the quality standards established by the President’s
of quality control for the audit function in effect for    Council on Integrity and Efficiency/Executive
the 2 years ending September 30, 2010, was suitably        Council on Integrity and Efficiency, the CIGIE,
designed and complied with, providing the OIG with         and the Attorney General guidelines. These safe-
reasonable assurance of performing and reporting in        guards and procedures provide reasonable assur-
conformity with applicable professional standards.         ance of conforming with professional standards in
Federal audit organizations can receive a peer review      the conduct of investigations. There are no outstand-
rating of pass, pass with deficiencies, or fail. The GPO   ing recommendations from this peer review. The
OIG received a peer review rating of pass. There are       Peer Review Report is available on the GPO OIG Web
no outstanding recommendations from this peer              site at http://www.gpo.gov/pdfs/ig/investigations/
review. The Peer Review Report is available on the         InvestigationsPeerReview.pdf.
GPO OIG Web site at http://www.gpo.gov/pdfs/ig/            C. PEER RE VIEWS OF OTHER OIGS
audits/GPO-AuditPeerReviewReport.pdf.
                                                           The GPO OIG did not conduct a peer review of any
B. PEER RE VIEW OF THE INVE S TIGA-                        other OIG during this reporting period. It has sched-
TION FUNCTION
                                                           uled a peer review of the audit function of the Peace
Because it does not derive its statutory law enforce-      Corps OIG during the next reporting period.
ment power from Section 6(e) of the IG Act of 1978,




                                                           SEMIANNUAL REPORT TO CONGRESS                           47
U. S. G O V E R N M E N T P R I N T I N G O F F I C E     ■       OFFICE OF INSPECTOR GENERAL

          7 3 2 N O R T H C A P I T O L S T R E E T, N. W . WA S H I N G T O N, D C 2 0 4 0 1

  2025120039         ■   W W W . G P O. G O V / O I G       ■   OIG HOTLINE 18007437574
                                 GPO OIGHOTLINEGPO.G OV
